<html>
<title> - IMPLEMENTATION OF THE 1996 SAFE DRINKING WATER AMENDMENTS AND SAFE DRINKING WATER RESEARCH PROGRAMS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  IMPLEMENTATION OF THE 1996 SAFE DRINKING WATER AMENDMENTS AND SAFE 
                    DRINKING WATER RESEARCH PROGRAMS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                         HEALTH AND ENVIRONMENT

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 1999

                               __________

                           Serial No. 106-80

                               __________

            Printed for the use of the Committee on Commerce

                    ------------------------------  



                     U.S. GOVERNMENT PRINTING OFFICE
60-360 CC                    WASHINGTON : 1999



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Health and Environment

                  MICHAEL BILIRAKIS, Florida, Chairman

FRED UPTON, Michigan                 SHERROD BROWN, Ohio
CLIFF STEARNS, Florida               HENRY A. WAXMAN, California
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 PETER DEUTSCH, Florida
RICHARD BURR, North Carolina         BART STUPAK, Michigan
BRIAN P. BILBRAY, California         GENE GREEN, Texas
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
CHARLIE NORWOOD, Georgia             THOMAS M. BARRETT, Wisconsin
TOM A. COBURN, Oklahoma              LOIS CAPPS, California
  Vice Chairman                      RALPH M. HALL, Texas
RICK LAZIO, New York                 EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN B. SHADEGG, Arizona             JOHN D. DINGELL, Michigan,
CHARLES W. ``CHIP'' PICKERING,         (Ex Officio)
Mississippi
ED BRYANT, Tennessee
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Guerrero, Peter F., Director, Environmental Protection 
      Issues, General Accounting Office, accompanied by Ellen 
      Crocker....................................................    16
    Hall, Stephen K., Executive Director, Association of 
      California Water Agencies..................................    53
    Noonan, Hon. Norine E., Assistant Administrator for Research 
      and Development, accompanied by Cynthia C. Dougherty, 
      Director, Office of Groundwater and Drinking Water, 
      Environmental Protection Agency............................    26
    Olson, Erik D., Senior Attorney, Natural Resource Defense 
      Council....................................................    58
    Sullivan, John H., Deputy Executive Director, American Water 
      Works Association on behalf of Association of Metropolitan 
      Water Agencies and the National Association of Water 
      Companies..................................................    49
Material submitted for the record by:
    Association of Metropolitan Water Agencies, American Water 
      Works Association, letter dated October 8, 1999 to Hon. 
      John D. Dingell............................................    83
    Campaign for Safe and Affordable Drinking Water, letter dated 
      November 1, 1999...........................................    87

                                 (iii)

  


  IMPLEMENTATION OF THE 1996 SAFE DRINKING WATER AMENDMENTS AND SAFE 
                    DRINKING WATER RESEARCH PROGRAMS

                              ----------                              


                      WEDNESDAY, OCTOBER 20, 1999

                  House of Representatives,
                             Committee on Commerce,
                    Subcommittee on Health and Environment,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2123, Rayburn House Office Building, Hon. Michael 
Bilirakis (chairman) presiding.
    Members present: Representatives Bilirakis, Deal, Bilbray, 
Ganske, Lazio, Pickering, Bryant, Brown, Pallone, and Barrett.
    Also present: Representative Engel.
    Staff present: Bob Meyers, majority counsel; Clay Alspach, 
legislative clerk; Richard A. Frandsen, minority counsel; and 
Brendan Kelsay, minority investigator.
    Mr. Bilirakis. The hearing will come to order. Good 
morning. Over 3 years ago, this subcommittee approved a 1996 
Safe Drinking Water Act amendments. In doing so, the 
subcommittee attempted to chart a new course for the protection 
of the public health. We abandoned an unworkable law which 
placed the EPA on a regulatory treadmill and replaced it with a 
law which required the Agency to focus on contaminants which 
pose the greatest risk to public health.
    Under the 1996 Safe Drinking Water Act amendment, we 
required EPA to examine adverse health effects of drinking 
water contaminants, the occurrence of contaminants in drinking 
water supplies, and whether regulation of a contaminant 
presented a meaningful opportunity for health risk reduction.
    All of these provisions require, at their core, numerous 
health studies and an evaluation of the human health risks. 
They require scientific investigation and assembling a body of 
cohesive knowledge which can be subject to public critique. 
They require a multi-year planning process and assessment of 
where to allocate limited resources.
    The 1996 amendments, in effect, required EPA to undertake a 
new model of environmental regulation, one which focuses not on 
the most recent anecdotal study or which is driven by arbitrary 
criteria but one which pursues a long-term research agenda. The 
1996 amendments required EPA to evaluate what we do know about 
drinking water contaminants and to actively pursue reliable and 
verifiable knowledge about what we don't know.
    I believe the jury is still out on whether EPA is doing the 
job it was supposed to do under the 1996 amendments. But time 
is running out on their deliberations, and initial reports from 
jury room are not promising.
    In specific, today we will receive a report from GAO which 
indicates that EPA does not have any overall estimate of the 
resources it needs for drinking water research. We will hear 
that the Agency has requested a larger percentage of funds for 
regulatory development rather than basic research on drinking 
water contaminants. We will learn that EPA has not completed 
research plans for significant portions of its regulatory 
workload although many statutory deadlines are looming over the 
next 2 years. And we will hear that EPA does not have an 
effective tracking system to understand the progress of the 
research it actually is conducting.
    While I eagerly await the explanation of the Agency on 
these matters these are not trivial failings by EPA. Instead, 
they go to the heart of the regulatory program established by 
the 1996 amendments. They go to the heart of whether we will be 
successful in accurately assessing threats to the public health 
and addressing them through new drinking water standards. While 
I am open to explanation, I am very concerned that if 
deficiencies are not corrected, the success of the 1996 
amendments will be seriously jeopardized.
    I want to take this opportunity to thank Chairman Bliley 
and Congressmen Bilbray and Lazio for requesting along with 
myself the GAO report we will review this morning. This report 
constitutes the first phase of the subcommittee's request to 
GAO. We will also pursue additional questions concerning the 
adequacy of funding for drinking water infrastructure.
    Otherwise, I want to extend my gratitude for the testimony 
presented by our second panel. Although small in size, I 
believe this panel will be able to present important 
perspectives on safe drinking water research for the 
subcommittee to evaluate. As I have indicated in previous 
hearings, I would also request that our witnesses from EPA 
either remain in the hearing room and that can only be a 
request on our part; but we would really very much appreciate 
it, either remain in the hearing room for the testimony of the 
second panel so that they can also learn from their testimony, 
or make arrangements to be thoroughly briefed on the testimony 
and material received into the record.
    Finally I would note that we have requested the GAO to 
testify on the same panel as witnesses from EPA and for EPA to 
testify on the same panel as non-executive branch witnesses. I 
appreciate the cooperation of both GAO and EPA in this regard 
and would note that this accommodation was made in the from of 
expediting this hearing only and not necessarily to establish a 
precedent for future hearings. Although, frankly, I kind of 
like the idea of they being able to maybe go back and forth at 
each other.
    [Material submitted by Hon. Michael Bilirakis follows:
    [GRAPHIC] [TIFF OMITTED] T0360.001
    
    [GRAPHIC] [TIFF OMITTED] T0360.002
    
    [GRAPHIC] [TIFF OMITTED] T0360.003
    
    [GRAPHIC] [TIFF OMITTED] T0360.004
    
    [GRAPHIC] [TIFF OMITTED] T0360.005
    
    [GRAPHIC] [TIFF OMITTED] T0360.006
    
    Mr. Bilirakis. Having said all that I would now yield in 
the gentleman from Ohio, Mr. Brown.
    Mr. Brown. Mr. Chairman, thank you. I welcome this hearing 
today to examine the EPA's research program in conjunction with 
regulatory requirements established by the 1996 Safe Drinking 
Water Act. As we review EPA's budget request, we should also 
look at whether Congress, which has made the independent--which 
has the independent authority to actually appropriate funds, 
has made wise decisions on the appropriations process with 
respect to research funding. Have congressional earmarks within 
the Agency's overall budget drained away available funds? What 
will 1 or 2 percent across the board budget cuts, as my 
Republican colleagues are currently discussing, mean for these 
research programs?
    The focus today, however, on the drinking water research 
program, while important, cannot mask what this committee did 
last week--what the full committee did last week to 
dramatically weaken the protection of our groundwater supplies 
in the United States. Nearly 120 million Americans, half the 
country, rely on groundwater as the primary source of drinking 
water. Unfortunately, in reporting H.R. 2580, the Superfund 
reauthorization bill a week ago, my Republican colleagues 
voted: 1. To eliminate from current law the authority for 
Federal and State governments to rely on quote unquote 
``relevant and appropriate'' State and Federal environmental 
requirements. This was done over the opposition of the American 
Water Works Association and the Association of Metropolitan 
Water Agencies who have informed the committee that relevant 
and appropriate requirements are quote ``a key tool in 
protecting human health and insuring that consumers are not 
forced to pay for treatment of water contaminated by hazardous 
waste.''
    My Republican colleagues voted also to weaken the cleanup 
standards for three significant and widespread contaminants 
found at Superfund sites: tetrachloroethylene, carbon 
tetrachloride, and trichchloroethylene. In the case of 
tetrachloroethylene, which is a solvent widely used by the dry 
cleaning industry, H.R. 2580's cleanup standard according to 
State and Federal officials is more than 2,000 times less 
stringent than the maximum contaminant level established by the 
Safe Drinking Water Act.
    3. My colleagues voted against an amendment that would 
direct EPA, in conducting cleanup actions, to protect 
uncontaminated groundwater. The Metropolitan Water Association 
and the Water Works Association again urged, ``the committee to 
include language directing, at a minimum, that uncontaminated 
groundwater be protected.''
    My Republican colleagues voted in the last week in the 
Superfund bill to weaken the preferences for treatment and 
permanent remedies found in current law once again voting 
against the position taken by State and Federal officials and 
our drinking water suppliers. These and other provisions in 
2580 weaken current law and could result in Superfund cleanups 
that would not adequately protect human health or the 
environment.
    Mr. Chairman, it is wrong to weaken current law and benefit 
those who pollute our Nation's groundwater at the expense of 
our drinking water suppliers against the recommendations of 
State and local governments and at the expense of our citizens 
who rely on clean groundwater for their health and the economic 
growth of their communities. I hope this committee will come to 
its senses before it is too late.
    Mr. Chairman, I look forward to the testimony of our 
witnesses.
    Mr. Bilirakis. Thank the gentleman. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I would like to echo 
my colleagues appreciation for your holding this hearing. And 
let me just say that I think too often we take for granted that 
the water we have access to through the tap is clean and safe. 
I for one have got to tell you it is sort of interesting to 
note for somebody who lives half the time in San Diego and half 
the time in Washington, DC. That I don't take it for granted 
here in Washington, DC. It is a concern. Every time I turn on 
the tap I always wonder about the quality of it.
    Now, I am lucky enough to be able to go home to my hometown 
in San Diego and fortunate enough to have an extremely clean 
drinking water source. In fact, one that has not had a 
violation in over a decade. But we also import our water 500 
miles from northern California or import it from Colorado. And 
our source of water is quite different. I think that all of us 
though have a responsibility to try to make sure that all the 
water in this country is safe working with local officials to 
make sure that the safeguards we develop are actually 
safeguards.
    Now, I think that the issue of protecting at-risk 
individuals, children, women, people with compromised immune 
systems are something that we need to focus on, and I think 
that is the new level of sensitivity that we are shooting at. 
And I just want to make sure what when we do this, that we 
focus on real life situations. And I would ask my colleagues 
who are always talking about the concern about public health, 
please remember, and I know you don't like the preaching from 
somebody from California on this, please remember that any time 
we spend a dollar on something that is not a real-life 
situation that is a dollar that could be spent on those 
critical services.
    That is why from time to time again this member has tried 
to point out there are times that a strategy that may work 
great in Michigan is an absolute waste of resources when you 
try to apply it in Arizona. And we not only have a right to 
make sure those, you know, inconsistencies are addressed we 
have a responsibility to it not just in good governance but as 
people who are actually claiming and have the responsibility of 
protecting the public health.
    I hope at this hearing we are able to make sure that as we 
focus our resources, we focus them on real-world situations 
that will help our children, help those who are most at risk. 
Because I think that both, Republicans, Democrats, that is what 
we are here for. It is what we are about. We are not here to 
put regulations out for regulation's sake, to spend money. An 
act that will show a degree of compassion and caring is 
obviously based on how much mandates I put on or how much money 
I spend, I think the real proof of the pudding is will we have 
a safe drinking water system.
    I would love to participate with this committee, Democrats 
and Republicans, to make sure that the water in DC, and in the 
rest of the country is as safe, as accessible as the water in 
my hometown. And I hope that we can work together to make that 
our goal and our achievement. Thank you, Mr. Chairman. I yield 
back.
    [The prepared statement of Hon. Brian P. Bilbray follows:]
   Prepared Statement of Hon. Brian P. Bilbray, a Representative in 
                 Congress from the State of California
    Mr. Chairman, thank you for holding this hearing today, on a matter 
of great importance to every single one of our constituents--the safety 
of their drinking water. We tend to take a great many things for 
granted sometimes, but clean and safe drinking water is one thing we 
must never assume to be a ``given''. My hometown of San Diego is 
fortunate to have an extremely clean supply of drinking water, and a 
state of the art delivery system for it; however, not all communities 
are at this level. We have a responsibility to all those we represent 
to make sure that their drinking water supply is protected, and to take 
special care to ensure that the health of our most vulnerable 
Americans--children, pregnant women, the elderly, and those with 
compromised immune systems--is provided with extra safeguards.
    I was proud to play an active role in crafting the landmark 1996 
Amendments to the Safe Drinking Water Act, which made critical 
improvements to the way in which we protect and provide drinking water 
to the American people. In this broadly bipartisan legislation, which 
President Clinton signed into law, we required the EPA to consider 
several specific factors in setting drinking water standards. These 
included:

<bullet> assessing whether a contaminant will have an adverse effect on 
        health;
<bullet> whether a contaminant is known to occur or has a likelihood of 
        occurring in water supplies;
<bullet> whether a contaminant poses a ``meaningful opportunity for 
        risk reduction''.
    In addition, EPA is now required to use the ``best available, peer-
reviewed science and supporting studies conducted in accordance with 
sound and objective scientific practices''. All these provisions were 
intended to require an extensive effort to evaluate contaminants that 
pose a serious threat to human health, their occurrence in drinking 
water supplies, and the severity of health threats among the general 
population and specific sensitive subpopulations. This research and 
subsequent evaluations were intended to occur well in advance of any 
regulatory deadlines, in order to adequately inform the public.
    On March 29 of this year, I joined with my colleagues Rick Lazio, 
Chairman Tom Bliley, Health and Environment Subcommittee Chairman 
Michael Bilirakis in requesting the GAO to review several aspects of 
the implementation of the 1996 Amendments, examine EPA's existing 
research program, and provide an assessment of EPA's ability to 
complete the research needed over the next ten years to support sound 
regulatory decisions required by the SDWA.
    The purpose of this hearing is to review the findings of the 
report, and hear testimony on its conclusions from the EPA and other 
stakeholders in the drinking water community. I hope that the 
perspective and expertise of these witnesses will provide us with a 
better understanding of the situation, and address some of the frankly 
troubling concerns which the report has raised.
    Having read the report, I have several concerns which I hope will 
be thoroughly addressed by our witnesses, so that an appropriate course 
of action can be followed to remedy the situation. I am particularly 
concerned about the following findings in the report:

<bullet> concern by some stakeholders that there may be inadequate 
        health effects research available to support impending 
        regulations on arsenic, microbial pathogens, disinfectants, and 
        disinfectant byproducts--specifically including epidemiological 
        studies and research on sensitive subpopulations, such as 
        children and pregnant women;
<bullet> concern that EPA may be in a ``cycle'' in which its research 
        lags behind regulatory needs, and it lacks the appropriate 
        science to support its decisions; and
<bullet> that EPA lacks an effective system for tracking the progress 
        and funding of ongoing research, in relation to its master 
        longterm plan.
    I want to point out that this should not be an accusatory or 
combative process; we were able to enact the 1996 SDWA Amendments with 
an unprecedented level of bipartisan cooperation, and we need to 
maintain this cooperation as we work together to implement the Act. 
Thirsty children and their parents don't care who may be at fault, they 
only care that any problem regarding their drinking water gets fixed. 
EPA was provided with an opportunity to comment on a draft of this 
report, and stated that it ``agrees with the importance of the central 
issues examined in the report''. We will hear more from the EPA and 
other witnesses shortly, and it is my hope that together we can 
identify whatever shortcomings that now exist, and ensure that our 
drinking water program, properly supported by sound research, will 
function as we intended it to. Thank you again for highlighting this 
important issue, Mr. Chairman, and I look forward to the testimony of 
our witnesses.

    Mr. Bilirakis. I thank the gentleman. Mr. Pallone for an 
opening statement.
    Mr. Pallone. Thank you, Mr. Chairman. I must point out that 
I find it somewhat hypocritical for the majority to hold this 
hearing today when they voted just last week to roll back one 
Superfund protection after another including the water supply 
protections. Last week's markup resulted in the failure due to 
party line votes of my amendment that would have protected 
uncontaminated groundwater among other critical measures.
    I know Mr. Brown mentioned some of these other measures as 
well, but I did want to reiterate again the majority is 
rejecting the amendment to restore Federal and State authority 
to use relevant and appropriate requirements the ARARs, I guess 
it is pronounced, for cleanup efforts. The Association of 
Metropolitan Water Agencies has informed us that they rely on 
these requirements for cleanup efforts to protect human health 
and ensure that consumers are not forced to pay for treatment 
of water contaminated by hazardous waste. The water companies 
rely on the ARARs because the Safe Drinking Water Act may not 
provide sufficient guidance to govern the cleanup of 
unregulated contaminants.
    Mr. Chairman, I know we are here today to examine EPA's 
research program to determine whether it will be able to 
fulfill its obligations to select heretofore unregulated 
contaminants that present the greatest public health concerns. 
I regret that the majority passed up an opportunity to provide 
similar protections and risk assessments in the Superfund 
program and failed to act responsibly to protect the citizens 
of our country and our natural resources.
    I just want to point out that I have a bill that would 
rectify some of the concerns being raised today and address 
deficiencies in the Safe Drinking Water Act. I would ask the 
chairman if we could have a hearing on this bill and eventually 
pass the bill. This is the drinking water right to know act of 
1999, H.R. 2108. It enjoys bipartisan support. It has been 
cosponsored by other members of this subcommittee. The bill 
also was introduced in the Senate by Senator Frank Lautenberg. 
And the NRDC, which is testifying here today, has been 
supportive of the legislation.
    People in New Jersey frequently experience cases of water 
supply contamination from Superfund sites, of which we have 
more than any other State, and accidental releases among other 
sources. We must act to prevent such contamination. Earlier 
this year because I know Mr. Bilbray said use real examples, 
well earlier this year an oil spill from an apartment complex 
in my district leaked into a canal, in the Raritan canal. The 
leak was contained. However, it posed a potential threat to the 
drinking water supply for a great many of my constituents 
because the canal flows into the Raritan River which supplies 
drinking water for nearly three-fourths of Middlesex County, 
which has about 600,000 people.
    The drinking water right to know act of 1999 would address 
current deficiencies by amending the Safe Drinking Water Act to 
improve source water assessments and consumer confidence 
reports. In performing source water assessments under my bill, 
the States would assess the threat posed not just by regulated 
contaminants but by certain unregulated contaminants believed 
by the U.S. EPA and the U.S. Geological Survey to cause health 
problems and by contaminants known to be released from local 
pollutionsites such as Superfund, other waste sites, and 
factories.
    The bill also would require States to identify potential 
contamination of groundwater even outside the immediate area of 
the well and perform assessments with full involvement from the 
public. In addition, my bill would inform the public about 
contaminants in drinking water that currently are unregulated 
but still may present a threat to people's health.
    Mr. Chairman, I just wanted to say we had an opportunity 
last week to protect water supplies; but those amendments were 
voted down. We also could have passed Narrow Brownfields 
legislation that enjoys consensus support, but that didn't 
happen. Of course, I would like to have my Republican 
colleagues cosponsor my bill, my amendments, to the Safe 
Drinking Water Act and pass my legislation; but I know that is 
not going to happen.
    And instead, we are just holding another hearing under the 
guise of improving the Safe Drinking Water Act. Again I think 
we need to focus more on things that we can accomplish 
legislatively and not just have hearings, you know, for the 
sake of, you know, just being critical. You know I know you are 
well-intentioned, Mr. Chairman; and you know I probably sound 
too critical in your opinion. But I am just getting a little 
frustrated with what is happening with the committee. Thank 
you.
    Mr. Bilirakis. Dr. Ganske, for an opening statement.
    Mr. Ganske. Thank you, Mr. Chairman. This is an important 
hearing. In 1996, we passed amendments to the Safe Drinking 
Water Act that required the EPA to make regulatory decisions on 
certain water contaminants based on sound science. As we 
approach the first deadline for an administrative decision, it 
is vital that we, as an authorizing committee, review the 
status of this program and ensure that EPA is following the 
requirements of the act. The GAO report before us today and 
testimony from our second panel indicates that in certain areas 
of implementation the Agency is behind the curve. And I am 
pretty concerned about this.
    Specifically, I am concerned about the role science will 
play in the Agency's decisionmaking process. The act says the 
EPA must use the quote ``best available peer reviewed science 
and supporting studies conducted in accordance with sound and 
objective scientific practices.'' Yet we will hear today that 
much of this science will not be available by the time EPA 
starts making regulatory decisions. According to GAO's 
testimony, EPA has admitted that some high priority research 
projects will not be completed in time for upcoming 
regulations. The Agency told GAO, however, that they will issue 
the regulations using the best available science at the time. 
Then they may modify regulations if further information 
indicates they should do so.
    Mr. Chairman, is this the way we want the Agency to 
implement our laws? The Agency will say, we will tell you that 
you must do this now although we don't have all the information 
but when we do have all the necessary scientific information, 
we will change the regulations and tell you what to do next. 
Like changing horses in midstream that is not a good idea for 
cowboys, and it is not a good idea for local water systems.
    I am getting very uneasy about the implementation of this 
program. I am beginning to see the seeds of controversy that 
surround the implementation of the Food Quality Protection Act. 
In that program, the agency is making decisions before it has 
completed the science in direct contradiction to the letter of 
the law. That is not good governing. GAO's report says the EPA 
does not even have a comprehensive research plan of safe 
drinking water research yet. Nor has it determined what 
resources will be needed to complete the necessary research to 
ensure sound science is used in making regulatory decisions.
    Mr. Chairman, this law has been on the books for 3 years. 
What is the hold up? I am very interested to hear what the EPA 
has to say in response to these GAO allegations, specifically, 
why is the EPA planning on issuing regulations before the 
science is ready? Where is the science? And why, after 3 years, 
is there no comprehensive research plan for safe drinking 
water? I hope the answers we hear will give us some confidence 
in the future implementation of this program. And with that I 
yield back.
    Mr. Bilirakis. Okay. I thank the gentleman. I think that 
completes the opening statements. Obviously, the written 
opening statements of all members of the subcommittee are, 
without objection, made a part of the record.
    [Additional statements submitted for the record follow:]
  Prepared Statement of Hon. Rick Lazio, a Representative in Congress 
                       from the State of New York
    Mr. Chairman, I applaud your efforts to hold these hearings on the 
implementation of the Safe Drinking Water Act Amendments of 1996. I 
cannot think of a better way to emphasize the significance of this 
issue than to point to the pitchers of water sitting in front of us 
right now. We, just like our fellow citizens, rely upon this Act to 
ensure that the water in these pitchers is healthy and safe.
    Earlier this spring, I joined with you, Mr. Bliley, and Mr. Bilbray 
in asking the GAO to look into EPA's implementation of the 1996 
amendments. I took this action because ensuring the quality of our 
drinking water is a critical responsibility for all of us.
    In 1996, Congress made major reforms in the way the safety of our 
drinking water would be ensured. The Congress recognized that many of 
the old legislative mandates on EPA just were not working. In response, 
Congress required regulatory efforts to be refocused on contaminants 
posing the greatest health risks. It also added programs designed to 
strengthen the science underlying drinking water regulations.
    A reliance on the best available scientific research for setting 
new drinking water standards underlies the regulatory mandates of the 
1996 amendments. However, last year, this subcommittee heard testimony 
that indicated that EPA was devoting insufficient resources for this 
research. We heard that this shortfall could reach $20 million per year 
through fiscal year 2003, with arsenic and disinfection by-product 
research plans alone requiring $150 million. Because of this testimony, 
I joined with my colleagues to request that the GAO perform an 
assessment of EPA's research efforts.
    I am concerned with some of GAO's findings on this issue. First, I 
am concerned to hear that the budget requests are not linked to 
multiyear resource estimates. I understand the need to balance 
competing resource needs, but I cannot see how this can be done without 
an understanding of the total project.
    The report states that EPA acknowledges that some high-priority 
research projects will not be completed in time for the required 
regulatory efforts. I hope that today's witnesses will assure us that 
there will be sufficient research to ensure that these regulations will 
be protective of our public's health. I cannot think of a higher 
priority for our environmental research funding than ensuring the 
safety of our drinking water.
    Mr. Chairman, my biggest concern with what the GAO reports is that 
some stakeholders are worried that we may not have adequate research to 
protect public health, particularly for pregnant women, children, the 
elderly and other sensitive members of the public. EPA officials also 
acknowledged that the study of human reproductive and developmental 
effects, in particular, is an area where more research is needed. In 
the 1996 amendments, the Congress specifically directed that EPA 
consider these sensitive subpopulations in developing regulations. I 
realize that these types of studies require several years to complete. 
However, it concerns me to learn that EPA did not start these studies 
until studies commissioned by some of the states identified potential 
concerns. Mr. Chairman, how is it that the Congress in 1996 realized 
the need for this research, but it took several more years before EPA 
identified it as a research priority?
    The issues addressed in this hearing are complicated and one full 
of very technical, state-of-the-art science. I appreciate the time and 
technical expertise our witnesses will be providing us. Frankly, I hope 
that after hearing our witnesses, I will feel more confident when I 
pour my next glass of water than I was after reading the GAO report.
                                 ______
                                 
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    I want to thank all of our witnesses for their attendance and 
testimony here today.
    In March of this year, I sent a letter to the General Accounting 
Office requesting that they review safe drinking water research 
programs as well as other matters concerning the implementation of the 
1996 Safe Drinking Water Act Amendments. Subcommittee Chairman Michael 
Bilirakis and Representatives Brian Bilbray and Rick Lazio joined me in 
this request.
    Today, this subcommittee will receive testimony concerning the 
results of this months-long review. But from my reading of the report, 
the results are not good.
    GAO has determined that the Environmental Protection Agency has 
requested a much lower percentage of its authorized funding for 
drinking water research than it did for regulatory development. In the 
past four budgets submitted by the Administration to Congress, the 
Office of Research and Development requested over $78 million dollars 
less than authorized for such research, requesting between 24% and 57% 
less each year.
    I am all for saving taxpayer dollars. I think there are few 
instances in my service in Congress where I have argued for giving the 
Executive Branch more money than they requested. But with safe drinking 
water, any underfunding of basic research comes at a significant price. 
The public health is at stake. We learned this in 1993 when a 
waterborne organism in Milwaukee's drinking water supply killed 100 
people and sickened 400,000 more.
    The GAO report is also alarming in the deficiencies they found in 
EPA's internal management. GAO determined that EPA had no overall 
estimate of the resources it needed to conduct drinking water research 
and that EPA had not completed research plans for significant portions 
of its regulatory workload. EPA also does not have an effective system 
to track ongoing drinking water research and, at one point, even 
resorted to paying an outside contractor $148,000 to let the Office of 
Water know what the Office of Research and Development was doing with 
respect to individual research projects.
    I am willing to listen to EPA's testimony today and receive their 
explanations into the record. My mind is not made up as to whether we 
have an instance of mismanagement or not. But I am concerned and 
troubled by what we have initially learned. 92% of the American public 
relies on community water systems that are subject to safe drinking 
water regulations. In order for these regulations to be effective, they 
must be based on the best available scientific information. Yet EPA's 
Office of Research and Development spends merely 6.5% of it's total 
budget on drinking water research.
    Adequate research is surely not a question of the dollars spent. 
But when I learned that EPA doesn't have a comprehensive research plan 
to direct its operations--and won't have one in place until at least 
December, 2000--I have to question any assertion that the Agency knows 
what it is doing and that research will be available when it is needed 
in the years to come.
                                 ______
                                 
  Prepared Statement of Hon. Lois Capps, a Representative in Congress 
                      from the State of California
    Thank you Mr. Chairman for holding this hearing today on an issue 
important to all of us on the Committee, the protection of our nation's 
drinking water supply.
    Ensuring the safety of our drinking water supply is a fundamental 
function of our government's responsibility to protecting public 
health. We cannot have healthy communities without safe drinking water. 
Our children, in particular, are the most vulnerable, if our drinking 
water is not safe.
    I am pleased that we are examining the research program in 
connection with the regulatory requirements put in place under the Safe 
Drinking Water Act Amendments of 1996, and I look forward to hearing 
from our witnesses today.
    However, if the Committee is truly committed to protect our 
nation's drinking water, we must not only focus on EPA's research 
efforts, but also on the standards we set to protect our water supply. 
Sadly, this was not reflected in last week's votes during the Superfund 
markup of H.R. 2580.
    During Superfund markup, I, along with my colleagues Ms. DeGette, 
Mr. Pallone, and Mr. Stupak, offered amendments to protect our nation's 
groundwater. Unfortunately, all amendments were rejected on party 
lines.
    I offered an amendment to H.R. 2580 to protect those most 
susceptible to the toxic effects of exposure to Superfund sites, such 
as pregnant women and children. The language I offered in this 
amendment was similar to language passed by this body in the 1996 Safe 
Drinking Water Act. Section 1412 (V) of the Safe Drinking Water Act 
requires the EPA to consider ``The effects of the contaminant on the 
general population and on groups within the general population such as 
infants, children, pregnant women, the elderly, individuals with a 
history of serious illness, or other subpopulations that are identified 
as likely to be at greater risk of adverse health effects due to the 
exposure to contaminants in drinking water than the general 
population.'' Yet, my amendment offered was rejected along party lines.
    In our effort to protect our nation's drinking water supply, I urge 
my colleagues on the Committee to not merely focus on research 
conducted by the agency responsible for implementing the Safe Drinking 
Water program, but also on the standards we in Congress set affecting 
our nation's drinking water supply.

    Mr. Bilirakis. We will move right into our first panel now 
consisting of, Mr. Peter F. Guerrero, Director, Environmental 
Protection Issues at the General Accounting Office; the 
Honorable Norine E. Noonan. Dr. Noonan is Assistant 
Administrator for Research and Development, Environmental 
Protection Agency. She is joined by Ms. Cynthia C. Dougherty, 
Director of the Office of Groundwater and Drinking Water with 
EPA. Mr. Guerrero, I didn't know whether you wanted to 
introduce the lady to your right. You are more than welcome to 
do so at this point. We will start off with you then please 
feel free to introduce her.
    I will set the clock--I am going to set the clock at 10 
minutes. If you would like to finish before then or even 
shortly afterwards, it would be a good idea and possibly we can 
really get to the gist of it all during the hearing. Mr. 
Guerrero, why don't you kick it off, sir. Your written 
testimony is obviously a part of the record.

   STATEMENTS OF PETER F. GUERRERO, DIRECTOR, ENVIRONMENTAL 
 PROTECTION ISSUES, GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
      ELLEN CROCKER; AND HON. NORINE E. NOONAN, ASSISTANT 
  ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, ACCOMPANIED BY 
   CYNTHIA C. DOUGHERTY, DIRECTOR, OFFICE OF GROUNDWATER AND 
        DRINKING WATER, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Guerrero. Thank you, Mr. Chairman. With me today is 
Ellen Crocker who managed the work that we will be testifying 
on today. We are pleased to be here today to discuss our report 
on the Environmental Protection Agency's drinking water 
research program. My remarks summarize and highlight what is 
contained in the written statement that you indicated has been 
submitted for the record.
    As you know and has been said this morning, the Safe 
Drinking Water Amendments of 1996 made significant changes to 
the way that EPA is required to set drinking water quality 
standards. Among other things, the standards must be based on 
the best available peer-reviewed science. The statute also 
authorized increased funding for drinking water research. EPA's 
Office of Research and Development is primarily responsible for 
conducting or sponsoring this research, and the Office of Water 
establishes the standards and promulgates the regulations based 
on the research.
    In response to your request, we did three things:
    First we compared EPA's budget request for drinking water 
research with the amounts authorized under the law.
    Second, we obtained the views of stakeholders, those 
involved with supplying and insuring the safety of drinking 
water, regarding the likelihood that EPA will be able to 
complete the research necessary to support its regulatory 
decisions over the next decade.
    And finally, we assessed EPA's available drinking water 
research plans which were developed to support future 
regulatory decisions.
    In summary, Mr. Chairman we found the following: Over the 
past several years, EPA annually requested millions of dollars 
less than what Congress had authorized for drinking water 
research in the 1996 amendments. For example, EPA requested 
$41.5 million for fiscal year 2000 or nearly 24 percent less 
than the $54.6 million that was authorized.
    While EPA officials represent that this amount is 
sufficient to fill EPA's mission and program responsibilities, 
it is impossible to determine whether this is the case. This is 
because EPA has not developed an overall estimate of the 
resources needed for drinking water research, making it 
impossible to determine how any 1 year's budget will address 
and contribute toward meeting the overall research needs. In 
effect, what EPA is doing is identifying what research can be 
accomplished within the targets provided by OMB in a given 
year. The process does not fully disclose what research is not 
being funded.
    Furthermore, Mr. Chairman, EPA maintains that its annual 
budget requests for drinking water research are sufficient. 
However, I would add that in fiscal year 1998, EPA did attempt 
to do an unconstrained needs assessment of what resources would 
be needed to implement the 1996 amendments. In that 
unconstrained needs assessment, EPA concluded that the 
shortfall in research and data collection funding was in the 
range of 10 to $20 million annually for fiscal years 1999 
through the year 2005. EPA officials subsequently explained 
that the intent of the needs assessment was not to calculate 
exact budget requirements but to develop a ballpark estimate of 
needs.
    In March 1999 and again today, I believe you will hear EPA 
officials testify that the level of funding requested will be 
or is sufficient to provide the resources needed to meet all 
near-term, and I emphasize near-term, requirements of the act, 
raising the question of whether the longer-term requirements 
can also be met at the existing rate of funding. In fact, 
officials from the Office of Research and Development 
acknowledge what while the drinking water research budget has 
doubled in the last 5 years, it is beyond EPA's capacity to 
address all drinking water research needs. By the way, doubling 
is going from 3.3 percent of ORD's budget to 7.8 percent.
    The stakeholders have expressed concerns about the adequacy 
of the research for upcoming regulations on arsenic and 
microbial pathogens, disinfectants, and disinfection by-
products. While EPA officials acknowledge that some high 
priority research projects will not be completed in time for 
these regulations, they believe that the available research 
will be sufficient to support the regulations with sound 
science. They told us that they will issue regulations using 
the best available science and, when additional research 
results become available, they can modify the regulations as 
appropriate.
    Looking ahead, the availability of research for 
contaminants on the contaminant candidate list may be the most 
serious concern because relatively little research has been 
initiated so far. Because some of this research can take years 
to complete, the consensus among stakeholders and the Office of 
Water is that EPA should be conducting research on these 
contaminants now so that the regulatory determinations and 
rulemakings associated with these contaminants will be 
supported by sound science.
    There are serious consequences to not having adequate 
research to support upcoming regulations. If EPA issues 
regulations that are more stringent, water utilities and 
customers can face unnecessarily high treatment costs. As 
illustrated in the chart to my right, treatment costs can vary 
significantly depending upon where the standard is set. As you 
can see, at an arsenic level of 20 parts per billion, EPA's 
estimate of the compliance cost is $74 million. The cost goes 
quite significantly over the $2 billion mark at 2 parts per 
billion.
    On the other hand, if EPA decides to set a less stringent 
standard because some scientific data are not available, the 
public could be exposed to harmful contaminants longer than 
necessary.
    Mr. Chairman, having detailed research plans is the key to 
answering the questions regarding the adequacy of EPA's 
drinking water research efforts. EPA has prepared detailed 
research plans that identify the specific tasks it needs to 
complete in order to support the immediate upcoming regulations 
on arsenic and microbial pathogens, disinfectants, and 
disinfection by-products. However, while these plans specify 
research tasks, projected accomplishments, and expected 
completion dates, EPA has not identified the resources that are 
required to implement the plans. More important, EPA has not 
completed research plans for other significant portions of its 
regulatory workload including determinations on contaminants 
that are candidates for future regulation and the review and 
revision of existing drinking water standards, of which there 
are over 80.
    As you can see from the time line to my left, EPA is 
required to promulgate a number of important regulations over 
the next few years and, at the same, must begin the research 
necessary to support a number of future regulatory 
determinations.
    It is these future requirements that cause a number of 
stakeholders to be concerned about EPA's lack of a 
comprehensive research plan that integrates both near-term and 
long-term research needs. Stakeholders believe that developing 
a comprehensive plan would require EPA to lay out an integrated 
approach for supporting ongoing and future regulatory efforts 
and help ensure that the agency addresses those drinking water 
contaminants that pose the most important threats to public 
health. In effect, an integrated long-term plan would allow the 
agency to be more anticipatory and less reactive; and EPA would 
be able to break the cycle in which research lags behind 
regulatory needs.
    By the way, Mr. Chairman, as was mentioned, this is 
characteristic of an earlier approach, which Congress sought to 
change by providing the framework we are now working under in 
the 1996 amendments.
    In conclusion, Mr. Chairman, we recommend that EPA take 
steps to improve the link between drinking water needs and 
available resources. Specifically, we recommended that EPA 
first identify both the short-term and long-term research that 
must be done to support this important program.
    Second, establish timeframes that indicate when the 
research must be available. Third, estimate the resources that 
will be required to support the needed research; and, finally, 
use the data to develop budget requests and inform stakeholders 
of what research will be funded. In our report, we also 
recommend that EPA improve the tracking of ongoing research in 
relation to its existing research plans.
    Mr. Chairman, that concludes my remarks. Ms. Crocker and I 
will be pleased to answer any questions.
    [The prepared statement of Peter F. Guerrero follows:]
   Prepared Statement of Peter F. Guerrero, Director, Environmental 
   Protection Issues, Resources, Community, and Economig Development 
                             Division, GAO
    Mr. Chairman and Members of the Subcommittee: We are here today to 
discuss our report, which is being released today, on the Environmental 
Protection Agency's (EPA) drinking water research program.<SUP>1</SUP> 
In the Safe Drinking Water Act Amendments of 1996,<SUP>2</SUP> the 
Congress made significant changes to the way that EPA is required to 
set drinking water quality standards in its regulations governing 
public water systems. Among other things, the regulations must be based 
on the best available peer-reviewed science and must consider health 
risks, risk reduction, and implementation costs. The statute also 
authorized increased funding for the scientific research needed to 
support the regulations.
---------------------------------------------------------------------------
    \1\ Drinking Water Research: Better Planning Needed to Link Needs 
and Resources (GAO/RCED-99-273, Sept. 24, 1999).
    \2\ P.L. 104-182, 110 Stat. 1613 (1996).
---------------------------------------------------------------------------
    Concerned about whether EPA's drinking water research will be 
sufficient to support the agency's forthcoming regulations, the 
Committee asked us to

<bullet> compare EPA's budget requests for drinking water research 
        during fiscal years 1997 through 2000 with (1) the amounts 
        authorized for such purposes by the Safe Drinking Water Act 
        Amendments of 1996 and (2) the amounts estimated by EPA to be 
        needed to support the regulations and regulatory determinations 
        required under the amendments;
<bullet> obtain the views of stakeholders--those involved with 
        supplying and ensuring the safety of drinking water--regarding 
        the likelihood that EPA will be able to complete the research 
        necessary to support new regulations and regulatory decisions 
        over the next 10 years and the potential consequences if the 
        research is not completed; <SUP>3</SUP> and
---------------------------------------------------------------------------
    \3\ To obtain stakeholders' views, we interviewed officials with 
the American Water Works Association, American Water Works Association 
Research Foundation, Association of Metropolitan Water Agencies, 
Association of State Drinking Water Administrators, National 
Association of Water Companies, National Drinking Water Advisory 
Council, and Natural Resources Defense Council. We also contacted 
officials associated with the National Research Council and the Science 
Advisory Board.
---------------------------------------------------------------------------
<bullet> assess EPA's drinking water research plans, including the 
        tasks, projected funding, and anticipated accomplishments, to 
        support the development of new regulations and regulatory 
        decisions over the next 10 years.
    In summary, Mr. Chairman, we found the following:

<bullet> For fiscal years 1997 through 2000, EPA annually requested 
        millions of dollars less than the Congress authorized for 
        drinking water research and regulatory development in the 1996 
        amendments; however, the gap has narrowed recently. According 
        to EPA officials, the agency's annual budget requests reflect 
        the level of resources that agency officials believe is needed 
        to fulfill EPA's mission and program responsibilities, within 
        the planning ceilings and policy directives provided by the 
        Office of Management and Budget. But there is no overall 
        estimate of resource needs for drinking water with which to 
        compare EPA's annual budget requests because the agency does 
        not generally prepare estimates of the total resources needed 
        to carry out multiyear research programs.
<bullet> Stakeholders expressed concerns about the adequacy of the 
        research for the upcoming regulations on (1) arsenic and (2) 
        microbial pathogens, disinfectants (used to treat drinking 
        water), and disinfection by-products, particularly the adequacy 
        of research regarding health effects and the analytical methods 
        used to detect contaminants. While EPA officials acknowledge 
        that some high-priority research projects will not be completed 
        in time for these regulations, they believe that the available 
        research will be sufficient to support the regulations with 
        sound science. According to the stakeholders, the potential 
        consequences of not having adequate research to support 
        upcoming regulations could be significant. For example, if EPA 
        issues regulations that are more stringent than can be 
        justified by the available science, water utilities could bear 
        unnecessarily high treatment costs. On the other hand, if EPA 
        decides to set a less stringent standard because some 
        scientific data are not available, consumers could be exposed 
        to harmful contaminants longer than necessary.
<bullet> EPA has prepared detailed research plans that identify the 
        specific tasks it needs to complete in order to support 
        upcoming regulations on arsenic and microbial pathogens, 
        disinfectants, and disinfection by-products. However, EPA has 
        not completed research plans for other significant portions of 
        its regulatory workload, including determinations on 
        contaminants that are candidates for regulation and the review 
        and revision of existing drinking water standards. Moreover, 
        while the plans it has prepared specify research tasks, 
        projected accomplishments, and expected completion dates, EPA 
        has not identified the resources that are required to implement 
        the plans and does not have an effective system for tracking 
        the progress of ongoing research in relation to the plans. As a 
        result, it is difficult to ascertain whether the research has 
        been adequately funded or will be available in time to support 
        the development of new regulations and regulatory 
        determinations.
    On the basis of these findings, we recommended that EPA take steps 
to improve the link between research needs and resources and to better 
ensure that limited research funds within EPA and other organizations 
are most efficiently targeted. We also recommended that EPA improve the 
tracking of ongoing research in relation to existing research plans and 
communicate the agency's progress so that the Office of Research and 
Development's key customers can obtain timely and accurate reports on 
the status, timing, and funding of individual research projects.
Background
    EPA's responsibility for conducting drinking water research and 
developing the applicable regulations is split between its Office of 
Research and Development and Office of Water. The Office of Research 
and Development's five laboratories and centers are responsible for 
conducting research on health effects, exposure, treatment 
technologies, and analytical methods. In addition, its National Center 
for Environmental Assessment develops risk assessments for some 
contaminants.<SUP>4</SUP> Within the Office of Water, the Office of 
Science and Technology also does some risk assessments, and the Office 
of Ground Water and Drinking Water collects data on the occurrence of 
contaminants in drinking water; prepares the economic assessments, 
including cost-benefit analyses, and makes the risk management 
decisions necessary to support the regulatory decisions; and writes the 
regulations.
---------------------------------------------------------------------------
    \4\ A risk assessment typically involves an evaluation of (1) the 
likelihood that a contaminant will cause an adverse health effect, (2) 
the extent to which the population is exposed to the contaminant 
through drinking water and other sources, and (3) the relationship 
between the level of exposure and the adverse health effect.
---------------------------------------------------------------------------
    Among other things, the 1996 amendments to the Safe Drinking Water 
Act required EPA to finish developing most of the regulations that were 
in process at the time of the act's reauthorization, such as standards 
for arsenic; microbial pathogens, such as cryptosporidium; disinfection 
by-products; and radon. The amendments also created a new process for 
identifying contaminants that may warrant regulation on the basis of 
their adverse health effects, their frequency of occurrence in public 
water systems, and the projected risk reduction to be achieved by 
regulating them. EPA was required to publish, by February 1998, a list 
of high-priority contaminants not currently regulated. (This list is 
known as the Contaminant Candidate List.) Beginning in August 2001 (and 
in 5-year cycles thereafter), the amendments require EPA to determine 
whether to regulate at least five of the contaminants on the list. A 
determination to regulate them must be based on the best available 
public health information and data concerning the occurrence of the 
contaminant. In addition to regulating new contaminants, EPA must 
review and revise, as appropriate, existing drinking water standards at 
least once every 6 years.
    The 1996 amendments also modified EPA's standard-setting authority 
so that health risks, risk reduction, and costs must be considered when 
drinking water quality standards are established. When proposing a 
regulation, EPA is required to publish an analysis of, among other 
things, the effects of the contaminant on the general population and on 
subpopulations that are identified as likely to be at greater risk of 
adverse health effects due to exposure to contaminants in drinking 
water than the general population.<SUP>5</SUP> In addition, EPA is 
required to publish a determination of whether the benefits do or do 
not justify the costs. To the degree that its actions are based on 
science, EPA must use the best available peer-reviewed science and 
supporting studies conducted in accordance with sound and objective 
scientific practices.
---------------------------------------------------------------------------
    \5\ These ``sensitive subpopulations'' may include infants, 
children, pregnant women, the elderly, individuals with a history of 
serious illness, or other groups.
---------------------------------------------------------------------------
EPA's Annual Budget Requests for Drinking Water Research and Regulatory 
        Development Are Less Than the Legislatively Authorized Amounts
    For fiscal years 1997 through 2000, EPA annually requested millions 
of dollars less than the amounts the Congress authorized for drinking 
water research and regulatory development in the 1996 amendments to the 
Safe Drinking Water Act. Beginning with fiscal year 1998, the gap 
between the authorized funding levels and annual budget requests was 
much larger for drinking water research than for regulatory 
development, but this gap has narrowed recently for both areas. For 
example, in fiscal year 1999, EPA requested $35.5 million for drinking 
water research, or 35 percent less than the $54.6 million that was 
authorized for that year. In fiscal year 2000, when EPA requested $41.5 
million of the $54.6 million authorized for drinking water research, 
the difference between the authorized and requested funding was 24 
percent. To support regulatory development activities, EPA requested 
$40.9 million in fiscal year 1999, or about 13 percent less than the 
$47 million that was authorized. This gap was reduced to about 3 
percent in fiscal year 2000, when EPA requested $45.5 million of the 
$47 million authorized for regulatory development that year.
    According to officials within both the Office of Water and the 
Office of Research and Development, EPA does not prepare its annual 
budget requests on the basis of the specific funding authorizations in 
environmental statutes. Instead, the budget requests reflect (1) the 
level of resources that agency officials believe is needed to fulfill 
EPA's mission and program responsibilities and (2) the planning 
ceilings and policy directives provided by the Office of Management and 
Budget. Officials from the Office of Research and Development told us 
that the amount of funding to be requested annually for research on 
drinking water and other areas is determined through an extensive 
planning process in which research coordination teams--each responsible 
for a broad area of research--determine the Office's research 
priorities for the upcoming budget year. The teams consider several 
factors, including the Office's overall research strategy, the status 
of ongoing research, program offices' priorities, and statutory and 
budgetary constraints. Next, the Office of Research and Development's 
top management and EPA's Research Coordinating Council, comprising 
Deputy Assistant Administrators from across the agency, review the 
teams' recommendations and modify them as appropriate to ensure that 
the Office's annual budget request focuses on the highest research 
priorities across the agency.
    Using this process, EPA estimates only the resources needed for 
drinking water (and other) research for a specific budget year, rather 
than the total resources needed to carry out a multiyear research 
program for any given research area. In effect, the agency determines--
on an annual basis--what research can be accomplished within the 
targets provided by the Office of Management and Budget. Therefore, 
there is no overall estimate of resource needs for drinking water 
research with which to compare the annual budget requests for drinking 
water research.
    In fiscal year 1998, EPA did attempt to do an unconstrained needs 
assessment that would identify the activities and resources necessary 
to meet the new statutory mandates of the 1996 amendments, including 
requirements for drinking water research, and to achieve public health 
objectives. As we reported earlier this year, EPA concluded that the 
shortfall in research and data collection funding was in the range of 
$10 million to $20 million annually for fiscal years 1999 through 
2005.<SUP>6</SUP> The results of the assessment were presented to the 
National Drinking Water Advisory Council and other stakeholders in 
April 1998.
---------------------------------------------------------------------------
    \6\ Safe Drinking Water Act: Progress and Future Challenges in 
Implementing the 1996 Amendments (GAO/RCED-99-31, Jan. 14, 1999).
---------------------------------------------------------------------------
    EPA officials subsequently explained that the intent of the needs 
assessment was not to calculate exact budget requirements but to 
develop a ``ballpark'' estimate. In March 1999, EPA officials testified 
that the level of funding received in fiscal year 1999 and requested 
for fiscal 2000 is sufficient to provide the resources needed to (1) 
meet all near-term requirements of the act's amendments in a timely 
manner and (2) base regulatory decisions on sound science.<SUP>7</SUP> 
Officials from the Office of Water and Office of Research and 
Development are currently conducting a comprehensive evaluation of 
resource needs for the drinking water research program for fiscal year 
2001 and beyond.
---------------------------------------------------------------------------
    \7\ Implementation of the 1996 Safe Drinking Water Act Amendments: 
Hearing Before Subcommittee on Fisheries, Wildlife and Drinking Water 
of the Senate Committee on Environment and Public Works, 106th Cong. 
13-14 (1999) (Internet, GPO Access).
---------------------------------------------------------------------------
    Officials from the Office of Research and Development pointed out 
that drinking water research as a percentage of the total research 
budget has more than doubled--from 3.3 percent in fiscal year 1995 to 
7.8 percent in EPA's fiscal 2000 budget request. While the officials 
acknowledge that it is beyond EPA's capacity to address all drinking 
water research needs, they said that they have worked to establish 
partnerships with federal and nonfederal research entities, such as the 
National Institute of Environmental Health Sciences, the Centers for 
Disease Control and Prevention, and the American Water Works 
Association Research Foundation, to leverage additional resources.
Stakeholders Believe Some Research Will Not Be Available in Time to 
        Support Upcoming Regulations
    Several stakeholders were concerned about the adequacy of EPA's 
budget requests for drinking water research and the proportion of the 
Office of Research and Development's research budget that is devoted to 
drinking water. They believe that funding for drinking water research 
should receive a higher priority within EPA, considering its potential 
impact on public health, and they cited specific areas, such as certain 
health effects studies, in which they believe that funding constraints 
caused the research to be started too late to be available when needed.
    Beyond the questions surrounding the funding of drinking water 
research, stakeholders expressed concerns about the adequacy of the 
research that will be available to support the regulations on arsenic 
and microbial pathogens, disinfectants, and disinfection by-
products.<SUP>8</SUP> In the case of arsenic, for example, several 
stakeholders told us that some of the epidemiological 
studies,<SUP>9</SUP> which will provide information on health effects, 
will not be completed in time, in part, because the research was 
started too late for the results to be available when needed. While 
some stakeholders, such as the National Drinking Water Advisory Council 
and the Association of Metropolitan Water Agencies, agree that there 
will be gaps in the health effects research, they believe that 
sufficient information exists to take some interim action on arsenic. 
They expect EPA to lower the existing standard by the statutory 
deadline of January 2001, and, when the longer-term research is 
completed, to consider revising the standard again.
---------------------------------------------------------------------------
    \8\ Conventional water treatment practices require the addition of 
disinfectant chemicals to the water, that, while effective in 
controlling many harmful microorganisms, combine with organic and 
inorganic compounds in the water and form potentially harmful 
disinfection by-products.
    \9\ In general, environmental epidemiological studies are used to 
determine whether an association exists between an adverse health 
effect and the exposure of a population to a contaminant. Further 
studies are often needed to confirm the epidemiological association and 
determine the relationship between the level of exposure and the 
adverse health effect.
---------------------------------------------------------------------------
    Regarding the regulations on microbial pathogens, disinfectants, 
and disinfection by-products, many stakeholders commented that some of 
the health effects research--including epidemiological studies and 
research on sensitive subpopulations, such as children and pregnant 
women--will not be completed in time for the regulations. Both the 
Chairman of the National Drinking Water Advisory Council and the 
Executive Director of the National Association of Water Companies, 
among others, also expressed concern about whether researchers will be 
able to identify reliable analytical methods for detecting microbial 
contaminants, such as cryptosporidium, that will be included in the 
upcoming regulations.
    EPA officials acknowledge that some high-priority research projects 
will not be completed in time for the upcoming regulations on arsenic 
and microbial pathogens, disinfectants, and disinfection by-products. 
For example, in the case of arsenic, EPA has testified that a 
significant investment in health effects research must continue for 
several years to address priority research needs. In the case of 
research on disinfection by-products, officials from the Office of 
Research and Development told us that the importance of studying 
certain noncancer health effects has only recently been recognized as 
EPA's understanding of the science has evolved. Even so, EPA officials 
believe that the available research will be sufficient to support the 
regulations with sound science. They told us that they will issue 
regulations using the best available science and, when additional 
research results become available, will modify the regulations, if 
appropriate, as part of the review and revision of existing standards 
that are required every 6 years.
    Some stakeholders questioned EPA's approach. For example, the 
Executive Director of the American Water Works Association Research 
Foundation sees EPA's regulatory approach as a compromise that became 
necessary because some research was started too late to be available 
when needed. In addition, using a two-stage approach to regulate 
contaminants could increase costs to utilities in some instances. 
According to the Executive Director of the National Association of 
Water Companies, it is often not cost-effective to make incremental 
changes in treatment technologies.
    The consensus among stakeholders is that the availability of 
research for contaminants on the Contaminant Candidate List may be the 
most serious concern because relatively little research has been 
initiated so far and EPA does not expect to have a research plan until 
May 2000. According to a variety of stakeholders and officials within 
the Office of Water, EPA should be conducting research on these 
contaminants now so that the regulatory determinations and rulemakings 
associated with these contaminants will be supported by sound science. 
However, for the most part, this research is just now beginning. In a 
March 1999 hearing before the House Committee on Science, the Assistant 
Administrator for the Office of Research and Development testified that 
in its fiscal year 2000 budget, EPA redirected approximately $6 million 
from the funding that had been dedicated to research on microbial 
pathogens, disinfectants, and disinfection by-products to fill key data 
gaps and develop analytical methods for chemicals and microbial 
pathogens on the Contaminant Candidate List. Although the Office of 
Research and Development has already initiated research in the areas of 
health effects, exposure, and treatment for selected high-priority 
contaminants on the list, the fiscal year 2000 funding represents the 
first major reallocation of resources within the drinking water 
research budget to address these research needs.
    Some stakeholders believe that EPA may have sufficient information 
for the first set of regulatory determinations, which is due in August 
2001. However, stakeholders point out that the contaminants selected 
for the first determinations may simply represent those for which the 
most information is available--and not those that pose the most 
significant health risks. Greater concerns were raised about whether 
EPA will have sufficient information for the next round of 
determinations, which must be made by August 2006. A number of 
stakeholders were particularly concerned that little or no health 
effects research has been initiated for contaminants on the Contaminant 
Candidate List, and some noted that epidemiological studies can take 4 
or more years to plan and conduct. Consequently, they believe it is 
important to begin the work now so the results will be available when 
needed.
    According to stakeholders, the potential consequences of not having 
adequate science to support the regulations could be significant. If 
EPA issues regulations that are more stringent than what is justified 
by the available research, water utilities could bear unnecessarily 
high treatment costs. In the case of arsenic, for example, under both 
EPA's and industry's projections, annual compliance costs could 
increase dramatically, depending on how much the existing standard of 
50 parts per billion is lowered. Specifically, EPA has estimated that 
lowering the arsenic standard to 10 parts per billion would result in 
annual compliance costs of $270 million, but found that these costs 
would be much higher--reaching an estimated $2.1 billion--if the 
standard were lowered to 2 parts per billion. Similarly, estimates by 
the American Water Works Association range from $708 million, at a 
level of 10 parts per billion, to $4.2 billion, at a level of 2 parts 
per billion.
    On the other hand, not having adequate research could have an 
impact on public health. If EPA decides to set a less-stringent 
standard or defers regulation of a contaminant because some scientific 
data are not available, this could mean that consumers would be exposed 
to harmful contaminants for an additional 6 or more years.<SUP>10</SUP> 
The Natural Resources Defense Council and other organizations have 
expressed concern about the relatively limited research on the impact 
of drinking water contaminants on sensitive subpopulations, such as 
pregnant women, children, the elderly, and people with compromised 
immune systems. An official with the Office of Ground Water and 
Drinking Water acknowledged that the study of human reproductive and 
developmental effects, in particular, is an area in which more research 
is needed. He told us that some earlier studies indicated a possible 
association between exposure to drinking water treated with 
disinfectants and these effects but that additional long-term studies 
are needed to determine if there is any basis for concern.
---------------------------------------------------------------------------
    \10\ Under section 102(a) of the 1996 amendments, the EPA 
Administrator has authority to take action more quickly (i.e., 
promulgate an interim national primary drinking water regulation) 
whenever contaminants are determined to pose urgent threats to public 
health.
---------------------------------------------------------------------------
EPA Has Not Completed Some Research Plans and Does Not Identify or 
        Track the Resources Needed to Implement Existing Plans
    EPA has not yet completed research plans for its anticipated work 
on the Contaminant Candidate List and the review and revision of 
existing standards, and has not developed a comprehensive research plan 
that integrates both near-term and long-term research needs. EPA 
started work on a research strategy for the Contaminant Candidate List 
after the first list was published in 1998. Although EPA will be 
required to make a regulatory determination on at least five 
contaminants from the first list by August 2001, the agency does not 
expect to complete its strategy until May 2000. Similarly, although EPA 
must complete the review and revision of about 80 existing standards by 
August 2002, EPA only recently began the initial work associated with 
identifying the research needs for this effort. EPA officials explained 
that at this point, they do not expect the review of existing standards 
to require a significant research effort, and, consequently, this work 
will be incorporated into EPA's comprehensive research plan, which is 
targeted for completion by December 2000.<SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ EPA is required to develop a long-term research plan under 
section 202(a) of the 1996 amendments. The statute does not impose a 
deadline on the plan's completion.
---------------------------------------------------------------------------
    A number of stakeholders were concerned that EPA does not yet have 
a comprehensive research plan. As illustrated in appendix I, EPA is 
required to promulgate a number of important regulations over the next 
few years and, at the same time, must begin the research necessary to 
support future regulatory determinations on the Contaminant Candidate 
lists. Stakeholders believe that developing a comprehensive plan would 
require EPA to lay out an integrated approach for supporting ongoing 
regulatory efforts and identifying and conducting research on emerging 
concerns, such as the presence of pharmaceuticals in some sources of 
drinking water. In addition, a long-term plan would allow the agency to 
be more anticipatory and less reactive; EPA would thus be able to break 
the cycle in which the research lags behind regulatory needs. Moreover, 
with a comprehensive plan, stakeholders can avoid duplicating research 
that EPA already plans to fund and, instead, sponsor research that 
complements EPA's efforts.
    EPA has prepared detailed research plans in two significant areas--
(1) arsenic and (2) microbial pathogens, disinfectants, and 
disinfection by-products. Although the plans identify the specific 
research tasks that will be performed and provide information on the 
anticipated accomplishments, they do not include estimates of the 
resources needed to fund the planned research. As a result, it is not 
possible to make a link between the estimated cost of the research laid 
out in the plans and the funds requested for drinking water research in 
EPA's budget--and, thus, determine whether the research is adequately 
funded.
    Not only do existing research plans lack key information on 
resource requirements, but EPA also does not have an effective system 
for tracking the progress and funding of ongoing research in relation 
to the plans. The Office of Research and Development makes efforts to 
communicate the status and results of its work to the Office of Water 
(e.g., through regular staff-level contacts, special briefings, and 
status reports) and to interested groups outside the agency through 
stakeholder meetings and other means. However, officials from both the 
Office of Water and outside stakeholder groups indicated that they 
would like to receive regular reports that contain more detailed 
information on the status of projects in the research plans, including 
the estimated and actual start and completion dates and the funding for 
individual projects.
    Because the program office needed better information to monitor the 
status of the work laid out in the research plan and to track project-
level resource expenditures, the Office of Water developed its own 
tracking system for the research on microbial pathogens, disinfectants, 
and disinfection by-products. Since 1997, the Office of Water has paid 
a contractor over $148,000 to develop and maintain the tracking system 
and input data on the status of individual projects.
    Better planning and a more explicit link between research needs and 
resources would improve the transparency of the budget development 
process. The Science Advisory Board, which annually reviews the Office 
of Research and Development's budget requests, has noted improvements 
in the Office's efforts to link research priorities with specific 
environmental goals and in the coordination between the Office and the 
needs of EPA's program offices. However, in commenting on the Office's 
fiscal year 2000 budget, the Board's Research Strategies Advisory 
Committee indicated that the lack of transparency in the process used 
to set research priorities made it difficult for the Committee to 
evaluate the adequacy of the proposed budget. The Committee recommended 
that EPA make available information on high-ranking programs that it 
entertained during the budget-making process but could not fund because 
of overall budget constraints and competition with other programs. In 
addition, the Committee found that the criteria that EPA used to 
emphasize or de-emphasize programs in the proposed budget were unclear 
and recommended that EPA develop explicit criteria that can be used for 
setting research priorities during the budget development process. The 
Committee concluded that such an exercise would not only improve 
communication and understanding of the budget process for those outside 
the agency, but would also assist EPA in making its internal decision 
process more efficient.
    In closing, Mr. Chairman, key stakeholders in the drinking water 
community have concerns about whether EPA's research is on track to 
meet the demanding regulatory agenda mandated by the Congress in the 
1996 amendments to the Safe Drinking Water Act. We believe that more 
detailed and better-communicated information on planned and ongoing 
research would help EPA to deal with these concerns and that providing 
such information is warranted on the grounds of both accountability and 
efficiency. Identifying the nature, timing, and estimated cost of 
needed research over the multiyear research plans--and linking these 
needs to the annual budget request--will make the funding process more 
transparent.
    In addition, providing information on which projects will be funded 
in a given year will give stakeholders within and outside EPA a clear 
basis for assessing the impact of the agency's budget decisions. EPA's 
reliance on outside research entities to fill the gaps that are beyond 
the agency's capacity to meet makes it all the more important for EPA 
to identify high-priority projects that may be deferred or abandoned 
because of funding constraints. Similarly, having a more effective 
system for tracking ongoing research will both enhance the budget 
development process and allow stakeholders to make informed judgments 
about whether the research is adequately funded and will be available 
when needed.
    Our report being released today recommends a number of actions to 
improve the transparency of the budget development process and the 
effectiveness of the system used to track the progress and funding of 
research projects. First, to improve the link between research needs 
and resources and to better ensure that limited research funds within 
EPA and other organizations are most efficiently targeted, we 
recommended that EPA (1) identify the specific research that must be 
accomplished, (2) establish time frames showing when the results must 
be available, (3) estimate the resources that will be required to 
support the needed research, and (4) use these data to develop budget 
requests and inform stakeholders about what research will be funded. 
Second, we recommended that EPA improve the tracking of ongoing 
research in relation to existing research plans and communicate the 
agency's progress so that the Office of Research and Development's key 
customers, including the Office of Water and outside stakeholders, can 
obtain timely and accurate reports on the status, timing, and funding 
of individual research projects.
    EPA agreed that an adequate investment in drinking water research 
is critical to provide a sound scientific basis for drinking water 
regulations. The agency also noted the importance of linking multiyear 
research planning to the yearly budget cycle and using effective 
tracking systems for monitoring and communicating the status of 
research activities and resource requirements.
    Mr. Chairman, this concludes our prepared statement. We would be 
pleased to answer any questions that you or Members of the Subcommittee 
may have.
Contact and Acknowledgments
    For future contacts regarding this testimony, please contact Peter 
F. Guerrero at (202) 512-6111. Individuals making key contributions to 
this testimony included Ellen Crocker, Teresa Dee, and Les Mahagan.
[GRAPHIC] [TIFF OMITTED] T0360.007

    Mr. Bilirakis. Thank you very much.
    Dr. Noonan, please proceed.

                 STATEMENT OF NORINE E. NOONAN

    Ms. Noonan. Thank you, Mr. Chairman. The amendments of 1996 
to the Safe Drinking Water Act identified a wide range of 
critical research requirements to improve the scientific 
foundation for decisions to protect the health of both the 
general public and subgroups that may be at greater risk than 
the general population.
    I want to tell you the EPA recognizes the critical 
importance of drinking water research to ensure the sound 
scientific foundation for decisionmaking under the 1996 
amendments. We have established drinking water as one of EPA's 
highest priority research programs. We have doubled the annual 
investment in drinking water research. We have doubled it with 
an increase from $20 million to over $40 million in the fiscal 
year 2000 President's budget. And I also have to add that this 
is at a time when the total research budget for EPA is flat or, 
in fact, slightly declining.
    We have delivered hundreds of peer-reviewed products that 
di-

rectly support the near-term regulatory priorities, that is 
disinfec-

tion by-products, surface water, and groundwater rules and ar-

senic. We have peer-reviewed research plans that guide our re-

search. The MDBP and arsenic research plans are complete. As 
for

the CCL research plan, the draft was shared with stakeholders 
at

a workshop less than a month ago; and we anticipate that it 
will be complete by middle of next year.
    We are working on a comprehensive research strategy to be 
completed by the end of 2000. And in addition, we are working 
on a long-term and integrated budget request that essentially 
will be a multi-year budget plan. We have strengthened 
partnerships with outside research entities. These partnerships 
represent investments of millions of dollars in additional 
funding. We are working with the National Institutes for 
Environmental Health Sciences, the Centers for Disease Control 
and Prevention, and the American Water Works Research 
Foundation.
    We have a strong Science to Achieve Results Grants Program 
which has successfully expanded the participation and 
involvement of universities and not-for profits in addressing 
our highest priority drinking water research problems. We are 
making a significant effort to characterize the potential risks 
posed to subgroups of the population that may be more 
susceptible than the general population to chemical and 
microbial contaminants in drinking water. We have strong 
internal systems to assure accountability. We track resources, 
and we track research.
    The Office of Research and Development is committed to 
working with the Office of Water to identify ways in which we 
can improve our communication of our results to them. We have 
made extensive efforts to share the status of research 
activities and plans with the stakeholders, and we are 
initiating new activities to involve stakeholders in the 
planning process. We have adhered to a rigorous process of peer 
review to ensure that the science is of the highest quality and 
builds the strong foundation that we need for decisions.
    And finally, we are committed to ensuring that our budget 
requests for fiscal year 2001 and beyond will enable us to meet 
the highest priority needs of the 1996 amendments. The measures 
that we have undertaken over the last several years have 
enabled us to successfully meet the near-term needs and 
requirements of the amendments and will position us to meet the 
challenges of providing a sound scientific foundation for 
future drinking water regulatory decisions.
    I would be pleased to answer any questions you may have. 
And I assume that my testimony, in full, will be entered into 
the record.
    [The prepared statement of Norine E. Noonan follows:]
Prepared Statement of Norine Noonan, Assistant Administrator, Office of 
Research and Development and Cynthia C. Dougherty, Director, Office of 
 Ground Water and Drinking Water, Office of Water, U.S. Environmental 
                           Protection Agency
                              introduction
    Thank you, Mr. Chairman, for providing this opportunity to address 
the Committee today concerning the Environmental Protection Agency's 
(EPA) drinking water research program. We would like to update you on 
the status of our research program to support the implementation of the 
Safe Drinking Water Act (SDWA) Amendments of 1996. We would also like 
to share with you the activities that have been initiated in recent 
months to assess future drinking water research needs and resource 
requirements, to improve internal tracking mechanisms, and to further 
strengthen our interactions with stakeholders.
    The Amendments of 1996 identified a wide range of critical research 
requirements to improve the scientific foundation for decisions to 
protect the health of both the general public and subgroups that may be 
at greater risk than the general population. EPA has responded to these 
needs by establishing drinking water as one of our highest priority 
research programs. The annual investment in drinking water research in 
the Office of Research and Development has essentially doubled from a 
level of $20.8 M in 1995 to $41.5 M in the FY 2000 President's Budget. 
Research partnerships with outside research entities have been 
strengthened, and a strict adherence to the peer review process has 
been followed for all research plans and scientific products developed 
by the Office of Research and Development. These and other measures 
discussed below have enabled the Agency to improve the science and 
technologies needed to support priority rule makings and risk 
management decisions required by the 1996 SDWA Amendments.
           research to support priority regulatory activities
    EPA has been highly successful in addressing the critical near-term 
research needs and requirements of the 1996 Amendments. A targeted 
research program has been implemented with an emphasis on health 
effects, analytical methods and exposure, risk assessment and risk 
management research. Research priorities have also been addressed 
through the use of interagency agreements, cooperative agreements, and 
grants with such federal and non-federal entities as the Centers for 
Disease Control and Prevention, the National Institute for 
Environmental Health Sciences, the U.S. Geological Survey, the American 
Water Works Association Research Foundation, and universities across 
the country.
Research on Microbial Pathogens and Disinfection By-Products
    EPA's research activities on microbial pathogens and disinfection 
by-products (DBPs) in drinking water are consistent with the highest 
priorities identified in the Research Plan for Microbial Pathogens and 
Disinfection By-Products in Drinking Water. This research program 
represents hundreds of projects to support more informed risk 
management decisions for the Stage 1 and Stage 2 DBP rules and the new 
microbial rules that apply to surface water and ground water.
    Microbial Pathogens--EPA research on waterborne pathogens in recent 
years has provided new information and methods to better characterize 
and control the risks posed by microbial contaminants in drinking 
water. Studies to determine the infectious dose of two important 
waterborne pathogens, Cryptosporidium and Norwalk virus, have 
demonstrated that exposure to low levels of these agents in drinking 
water may cause infection in healthy humans. Less conventional 
treatment methods such as membrane filtration and alternatives to 
chlorination have been evaluated to determine their effectiveness in 
removing or inactivating waterborne pathogens. New technologies have 
been developed for increasing the operational efficiency of treatment 
processes to control microbial and chemical contaminants, and new 
methods for monitoring and predicting disinfectant concentrations in 
the distribution system have been developed to help ensure the safety 
of drinking water delivered at the tap.
    Current areas of emphasis include research to determine the nature 
and magnitude of waterborne disease in the U.S., and the development of 
simple inexpensive and accurate detection methods for well-known 
waterborne pathogens such as Cryptosporidium and for emerging pathogens 
such as microsporidia. EPA researchers are also evaluating the 
effectiveness of water treatment systems for small communities, and are 
conducting research to better understand how microbial intrusion into 
the distribution system occurs and can be prevented.
    Disinfection By-Products--EPA has been a leader in development of 
an expanding scientific data base to assess DBP health effects. New and 
improved tools for conducting toxicology and epidemiology research on 
these substances are being applied to better understand the mechanisms 
by which effects occur in laboratory animals and humans, and to 
characterize the nature and magnitude of the problem in both the 
general population and in subpopulations that may be more susceptible 
to harm. In addition to the long-standing research program addressing 
the carcinogenic potential of DBPs, a major new investment has been 
made to better understand whether adverse reproductive, immunological, 
or neurologic effects may also be of concern.
    As with microbial issues, DBP methods development is an essential 
focus both to improve occurrence information, and to expand our 
knowledge about what DBPs are formed from different treatment 
processes. To address these needs, EPA is developing analytical methods 
to support large-scale exposure surveys and facilitate regulatory 
compliance monitoring. Researchers are applying highly sensitive 
analytical techniques to identify previously uncharacterized by-
products that are formed with the use of alternative disinfectants. EPA 
is also conducting a range of studies to determine the effectiveness of 
various treatment processes in minimizing and controlling the formation 
of DBPs, with a special focus on the needs of small systems.
    Finally, I am pleased to report to you on the success of the 
largest data collection effort in the history of the drinking water 
program, commonly referred to as ICR (Information Collection Rule) 
data. Working closely with industry and other stakeholders, we have 
recently completed 18 months of data collection from 500 plants across 
the country. These data provide essential new information on source 
water, treatment train, and distribution system concentrations of DBPs 
and pathogens. The data represent over a $130 million investment in 
good science by the drinking water industry and will play a central 
role in the ongoing development of Stage 2 DBP and microbial public 
health measures.
Research on Arsenic
    The Safe Drinking Water Act Amendments of 1996 mandate that EPA 
promulgate a new regulation for arsenic by January 2001, and develop a 
plan for long-term research. The Agency's peer reviewed Research Plan 
for Arsenic in Drinking Water, which describes both short-term and 
long-term research activities to address key areas of scientific 
uncertainty, has guided the planning and implementation of research 
conducted by EPA scientists as well as by outside investigators. 
Researchers at EPA are conducting studies to better characterize the 
toxicity of arsenic and the factors that influence human 
susceptibility. Improved analytical methods are being developed to 
better distinguish toxic forms of arsenic in the diet and in biological 
materials. Another important area of research is the evaluation of 
cost-effective treatment technologies for small water systems.
    We are pleased to report that EPA has completed or is on schedule 
to complete all of the short-term research that we made a commitment to 
finish in the Research Plan for Arsenic in Drinking Water. The EPA will 
consider the existing information on health effects, exposure and risk 
management, along with new information that is available, as we assess 
the risks and evaluate treatment options in support of a new rule for 
arsenic by the statutory deadline in 2001. As a practical matter, 
research initiated in late FY 1999 and in FY 2000 by EPA and outside 
sources will not be available in time to inform the final rule making 
in 2001. This is because of the long-term nature of some of the more 
complex research issues, particularly in the area of the health effects 
of arsenic at low doses. Many of the projects conducted or financed by 
EPA and outside organizations are long-term research activities that 
will support the required review and revision, as appropriate, of the 
arsenic standard subsequent to the establishment of a new rule in 2001.
Research on the Contaminant Candidate List
    The Contaminant Candidate List (CCL) was established by EPA, with 
considerable involvement of outside technical groups and the 
stakeholder community, to aid in priority setting for the Agency's 
drinking water program. A number of contaminants on the CCL have 
already been identified as having sufficient data available, or limited 
data needs that can be quickly addressed. Regulatory determinations for 
the August 2001 statutory deadline will be made on contaminants 
selected from this category. Many other chemicals and microbial 
pathogens on the list may require additional data on health effects, 
monitoring methods, treatment or occurrence before a regulatory 
determination can be made.
    The EPA has completed a draft CCL research plan that has been 
shared with stakeholders in a collaborative effort to identify and 
prioritize research needs (see additional discussion about stakeholder 
involvement below). Although the plan will not be finalized until mid-
2000, research on a number of critical contaminants on the CCL (e.g., 
MTBE, perchlorate, and waterborne microbial pathogens such as Norwalk 
virus) is already being conducted by EPA or collaborating institutions, 
and general solicitations have been made under the Agency's external 
grants program. In the FY 2000 drinking water research program, there 
is an increased emphasis on addressing needs for CCL contaminants in 
the areas of health effects, analytical methods, treatment and 
occurrence, following the priorities outlined in the CCL research plan 
that is currently under development.
Research on Subpopulations at Greater Risk
    The 1996 SDWA Amendments emphasize the importance of research to 
identify and characterize groups that may be at greater risk than the 
general population of adverse health effects from exposure to 
contaminants in drinking water. EPA is addressing this issue by 
developing health effects data in laboratory animals and conducting 
assessments in target populations (e.g., pregnant women and infants) 
that are exposed to chemical contaminants and waterborne pathogens. 
Studies are being conducted to evaluate biological factors, such as 
differences in metabolism, that may be responsible for greater 
susceptibility in selected subpopulations. Research is also directed at 
improving estimates of exposure to the general public and special 
subpopulations, using a more comprehensive consideration of such 
factors as personal activity factors and exposures through the diet. As 
required by the 1996 Amendments, these research activities will be 
summarized in a Report to Congress that will be submitted by August, 
2000.
                    research planning and budgeting
    EPA has an extensive, coordinated research planning process that 
involves a comprehensive consideration and prioritization of all of the 
Agency's research needs, including those to support drinking water 
decision making. This process ensures that the media-specific needs of 
one regulatory program are considered in the context of the needs 
identified by other programs, and that the areas of greatest need, such 
as drinking water, are given the highest priority. The Office of 
Research and Development works in close partnership with the Office of 
Water, as well as in consultation with scientific advisory groups and 
stakeholders, to evaluate and prioritize research needs. Planning 
activities are closely linked to the annual budget cycle. A new multi-
year planning effort for drinking water has been initiated to link 
strategic, long-term research priorities with annual planning and 
budgeting.
    Peer reviewed research plans and strategies provide a basis for 
planning and monitoring the progress of research on important programs 
such as drinking water. As described above, research plans have been 
finalized for M/DBPs and arsenic, and the CCL research plan will be 
finalized by mid-2000. A comprehensive research strategy that describes 
near- and long-term research needs for M/DBPs, arsenic, CCL 
contaminants, the review of existing standards, and other emerging 
issues will be completed by the end of 2000. The strategy will be used 
to guide discussions within the EPA and with stakeholders concerning 
research needs and resource requirements for the entire drinking water 
research program.
    Yearly budget requests for drinking water reflect a careful 
analysis of the highest priority research needs, considering EPA's need 
for research across all environmental activities (e.g., Clean Air, 
Clean/Safe Water, Children's Health) and keeping balanced budget 
constraints in mind. EPA has determined that the level of funding for 
drinking water research that was received in FY 1999 and requested for 
FY 2000 is sufficient to meet the near-term regulatory requirements. 
The Agency is committed to ensuring that the budget request for FY 
2001, which is currently being developed by the Administration, will 
also adequately address the highest priority research needs.
                           research tracking
    The EPA uses a comprehensive system to ensure fiscal controls and 
to track resources at the research project level. The management 
information system developed by the Agency was designed to produce 
accurate and timely reports for use by the Office of Research and 
Development's laboratories and centers according to: (1) fiscal year; 
(2) goal (e.g., air, water, waste); (3) program results code; (4) 
organization; (5) research area; and (6) task. The system was not 
designed to track resources by individual regulation. Recognizing the 
importance of research to future drinking water regulatory decisions, 
EPA is currently examining ways to provide information that is more 
closely aligned with the rule making efforts so that we can better 
track and communicate the status of our priority drinking water 
research activities that will feed into the regulatory decision making 
process.
                      involvement of stakeholders
    EPA places a high priority on sharing information with stakeholders 
regarding the status and plans for research on drinking water 
contaminants. Representatives from EPA participate regularly in 
numerous stakeholder meetings and other public events to share 
information on research that is being planned or conducted in support 
of the Agency's rule makings. In addition, EPA staff work closely with 
other federal agencies and serve on numerous research coordination 
committees and advisory groups with stakeholder groups. These efforts 
offer opportunities for more coordinated utilization of resources and 
to ensure that research conducted or supported by these organizations 
is complementary, not duplicative.
    EPA is taking steps to further strengthen these interactions to 
ensure that all groups are fully informed and have an opportunity to 
provide input concerning research needs and activities. One recent 
example of a highly successful effort to involve stakeholders early in 
the research planning process was the Drinking Water Research Needs 
Workshop, co-sponsored by EPA and the American Water Works Association 
Research Foundation on September 27-29, 1999. The goals of this expert 
workshop, which involved participants from the water industry, 
academia, various government agencies and the private sector, were to: 
(1) identify and prioritize the research needs related to unregulated 
drinking water contaminants; (2) describe the proper sequencing for the 
studies; and (3) develop resource needs estimates. Contaminants on the 
CCL were the major focus of the workshop, and EPA's draft CCL research 
plan was used as a starting point of the discussions. The EPA considers 
this workshop to be a excellent model for involving stakeholders early 
in the process of identifying and prioritizing research needs relating 
to future drinking water issues.
           ensuring success in meeting the research challenge
    EPA has made considerable progress in meeting the research 
challenges posed by the 1996 Amendments. We have significantly 
increased the research budget for drinking water over the past five 
years. We have developed peer reviewed research plans to guide research 
supporting the current major rule makings, and we are developing new 
research plans to support future regulatory activities. EPA has 
initiated a new multi-year planning effort for drinking water research 
that will facilitate the linkage of strategic, long-term research 
planning to the yearly budget cycle. We have conducted and are now 
refining a comprehensive resource needs assessment to address future 
requirements. A priority has been placed on strengthening partnerships 
with outside research entities and involving the academic community in 
helping to address critical research needs. We have made extensive 
efforts to share information with stakeholders about the status and 
plans for research to support drinking water regulations, and we have 
initiated new activities to make further improvements in this area. 
Taken together, these measures have enabled us to successfully meet the 
near-term needs and requirements of the 1996 Amendments, and will 
position us to meet the challenge of providing a sound scientific 
foundation for future drinking water regulatory decisions.

    Mr. Bilirakis. Oh, yes by all means, of course, written 
testimony is a part of the record. Thank you.
    Well, let me turn this back to 5 minutes. One of the things 
that GAO was directed to do was to address whether EPA's plans 
and projected funding were sufficient to support the 
development of new regulations, regulatory decisions over the 
next 10 years. We had the charts up here. The GAO report says, 
``it is difficult to ascertain whether the research has been 
adequately funded or will be available in time.''
    Ms. Noonan's statement says that EPA has an extensive 
coordinated research plan process that involves comprehensive 
consideration of prioritization of all the agency's research 
needs including those to support drinking water. Well, I guess 
we are at loggerheads here.
    I guess I would ask Mr. Guerrero, can you explain your 
statement that it is difficult to ascertain why it is difficult 
to ascertain and figure out whether EPA will get the job done 
on time, and then I would ask Dr. Noonan to sort of respond to 
your statement.
    Mr. Guerrero. Yes, Mr. Chairman. In my opinion, the 
apparent discrepancy is really not a discrepancy. What I hear 
EPA saying is on an annual basis, when they establish their 
priorities for research, they go through what is indeed 
probably a fairly detailed process internally as part of their 
internal budget deliberations.
    What we are saying is there is insufficient transparency 
associated with how that process--what the outcome of that 
process is and what the implications of it are for the future 
needs. In other words, lacking the kinds of plans that we 
identified in our statement, and lacking resource estimates for 
what would be required to do both short-term and long-term 
research, you can't tell from looking at the budget whether the 
budget amounts address a large portion of those needs, a medium 
amount of those needs, or a small portion of those needs.
    Likewise, you can't tell what priorities for drinking water 
research were not funded. And finally, that lack of 
transparency makes it very hard for the stakeholders, and I 
think you will hear from the stakeholders themselves later in 
panel two, to pick up that slack and complement EPA's research.
    Mr. Bilirakis. Well, Dr. Noonan, I guess what I hear GAO 
saying is that the problem isn't necessarily that you haven't 
met the research schedule, if you will, the research schedule, 
but there is an inadequate transparency there for them to 
really make a determination. Just go ahead and proceed on in 
your own words.
    Ms. Noonan. Mr. Chairman, let me back up for a moment and 
take a couple of minutes if I could and briefly explain our 
annual budget planning process. I think it would help perhaps 
to place this in context.
    ORD, the Office of Research and Development, plans our 
research budget on an annual basis in a highly collaborative 
mode with our program office colleagues and with the regions. 
It is vital for us to understand what the priorities of our 
colleagues are in terms of the research that they will need to 
meet their regulatory deadlines as well as keeping track and 
understanding that the agency needs a long-term perspective on 
much of the fundamental research that will underpin a wide 
variety of regulatory activities. Because of this, we plan 
highly collaboratively with our drinking water colleagues, our 
groundwater colleagues, air, pesticides, all of the offices 
within EPA.
    The research plans that are developed that inform this 
annual planning process, plans, for example, for microbial/
disinfection by-products are developed in a highly 
collaborative mode with external stakeholders. They know and 
have been involved in making those plans. And those plans 
inform our budget planning process. We don't deviate from those 
plans in the annual budget planning process. We look at those 
plans and try to incorporate as much of them on an annual basis 
into our budget as is feasible within the budget constraints 
that we must live under.
    With regard to transparency, I think inside the Agency I 
can safely say that it is very difficult for me to conceive how 
we could be more transparent inside the Agency. We have 
undertaken major efforts to inform our stakeholders outside the 
Agency of what our plans are, recognizing, of course, that the 
President's budget, as it is planned each year, is embargoed 
until it is actually released to the Congress in January of 
each year. Perhaps we are talking past each other here, but 
this issue of transparency is something that, quite frankly, I 
don't really understand the basis for.
    Mr. Bilirakis. Well Dr. Noonan, my time is up. You know our 
concern is that the 1996 amendments are law and that they be 
abided by. And so we have asked GAO, which is nonpartisan, to 
basically let us know what the situation is there. They have 
come back and told us that there just is inadequate--it is 
difficult to ascertain, et cetera, et cetera. I mean there is a 
problem there, and I should think that whether it is a factual 
problem or whether it is a perception problem there is a 
problem there.
    Well my time is up, and there is a vote on the floor. But I 
will call up Mr. Brown now, Dr. Brown's son.
    Mr. Brown. Dr. Noonan, during the fiscal years 1999 and 
2000, just tell us how many funding earmarks that the 
Appropriations Committee put in EPA's overall budget, which 
percentage did this make up of the overall budget. And just 
describe, if you will, the effect this has an ongoing way on 
EPA's funding priorities with regard to research.
    Ms. Noonan. Mr. Brown, let me say I think that the 
administrator's position on earmarks is well known. For fiscal 
year 2000 the budget, I think the bill is awaiting signature at 
the White House. The budget total for earmarks for EPA is about 
$474.3 million. That represents 324 earmarked projects. In the 
S and T account which is the account that funds most of the 
research in EPA, we are dealing with almost $54 million worth 
of earmarks which is over 10 percent of our budget total. And 
we are struggling right now with trying to accommodate those 
earmarks, and we must, of necessity, tradeoff some high 
priority activities that were planned for months through the 
2000 budget plan process. We must now trade those off in order 
to fund these earmarks.
    Mr. Brown. What are some of the proposals that you can't 
do? What are some of the research goals that you can't do as a 
result?
    Ms. Noonan. We haven't come to a conclusion on that. We are 
in the process of developing our operating plan for fiscal year 
2000. But I will tell you that there will be, in our operating 
plan reductions in a wide variety of high priority activities. 
We don't plan our budget in a vacuum. We can only fit in the 
highest priority things that we need to do. And earmarks, while 
they are the complete prerogative of the Congress and we 
understand that, that does not mean that they are not 
disruptive to a planning process that has taken months to 
accomplish.
    Mr. Brown. Mr. Guerrero, how do these earmarks affect the 
ability of the office to create a research budget?
    Mr. Guerrero. We didn't look specifically at the impact of 
earmarks, but I have some information. And the information 
seems to indicate that in the 1999 operating plan, earmarks 
accounted for $7.6 million of a total $47.7 million in spending 
on drinking water. So that puts it in perspective. But what the 
effect would be, we didn't look at that specific question.
    Mr. Brown. Ms. Dougherty, your office is represented on the 
Endrocrin Disrupter Screening and Testing Advisory Committee 
along with the Office of Research and Development in Pesticides 
and Toxic Substances. Tell us what specific steps the Office of 
Water is taking in response to the recommendations particularly 
with respect to measurement of exposure to endocrine-disrupting 
substances in groundwater and drinking water.
    Ms. Dougherty. The Office of Water did have someone on that 
group. And we are following up now: looking at what we need to 
do in the water program related to contaminants we are 
concerned about in both water and drinking water both. But I 
don't have that specific information. I would have to get that 
for you.
    Mr. Brown. Thank you.
    Mr. Bilirakis. We have a very important vote. So maybe it 
would be a good time to break at this point. I would hope that 
possibly after the other members of the panel might be here to 
raise questions. Perhaps we could go vote 2 or 3 minutes, to 
whether you all have anything specific you may want to inquire 
of each other to help us sort of make a determination here.
    Okay. We are going to recess for a few minutes until we 
cast the vote and get right back.
    [Brief recess.]
    Mr. Bilirakis. We are back. Thank you for your patience. 
The Chair will now yield to Mr. Bilbray to inquire.
    Mr. Bilbray. Yes. Let me--can you put up that arsenic 
display again. Mr. Guerrero, the budget requests for this 
research, you know, do we have the earmarks to make sure that 
we focus--and maybe this ought to go to the doctor--do we have 
the earmarks to focus on this type of research so we get this 
data in a timely manner; we get the information in the research 
in a timely manner?
    Mr. Guerrero. Let me answer generally, but then we will 
defer to the EPA on the specifics of earmarks and whether they 
are earmarks related to arsenic research. What we say in our 
report on arsenic is there are some studies, in particular 
health effects studies, which will not be completed in time 
because they were started too late. And the--there are really 
two reasons why this research is not going to be completed in 
time. One is that it is fundamentally the nature of research, 
and I think you will see in EPA's statement that research 
sometimes raises questions that need answers and you can't 
anticipate where it will lead you.
    Mr. Bilbray. What basic research right now do we have 
online? What are we doing specifically right now?
    Mr. Guerrero. Let me defer to Dr. Noonan on that.
    Ms. Noonan. We have research that is going on in a number 
of areas with regard to arsenic. We have toxicology and 
epidemiology studies to better evaluate cancer and noncancer 
effects associated with exposure to arsenic.
    Mr. Bilbray. Are we doing one in Utah?
    Ms. Noonan. I am not certain of that. I can certainly check 
that for you.
    Mr. Bilbray.  I know eastern Kentucky and Tennessee has a 
problem with the ambient arsenic.
    Ms. Noonan. We do have a study going on in Utah.
    Mr. Bilbray. But the Utah's choice is then you don't have 
other life-style problems that may contribute to the problems 
so you have more isolation. What level of parts per billion are 
we looking at as being the natural background arsenic level in 
Utah that is where your study is going on?
    Ms. Noonan. The exposure levels are between 25 and 50 parts 
per billion. Micrograms per liter. I am sorry I don't know what 
the natural background of arsenic is.
    Mr. Bilbray. Are you predicting their exposure is an 
artificial source of arsenic or is it a natural source of 
arsenic?
    Ms. Noonan. It is a natural source.
    Mr. Bilbray. So we have a natural source in Utah that is 
over 25 parts. Twenty-five to 50 was it?
    Ms. Noonan. Lower end of the exposed levels, yes.
    Mr. Bilbray. So I think that it is--you know we need to 
remind people that we are talking about natural problems here 
that we need to address. And now we are doing a study based on 
a population that is way over what we are talking or sitting 
around the top field here.
    And I just want to make sure that our science is going to 
give us the answers we need to develop appropriate strategies 
to protect the public health. What is your projection? Is this 
exposure so high so that if we don't not find chronic problems 
here that we may want to change our strategy? You know I am 
open up to any member here.
    Ms. Dougherty. We still have some more work to do on the 
Utah study. I am not the expert on it, but levels of 25 in the 
environment are really a significant concern at any of the 
potential regulatory levels. Because the law requires us to set 
the maximum contaminant level goal at a level which there are 
no adverse effects to people in terms of health with an 
adequate margin of safety. This is not necessarily what the 
standard becomes but it is the goal. So if we were finding 
levels at 25 in the environment--and they had health effects at 
those levels, to get no adverse effect with an adequate margin 
of safety you need to go far below that in terms of the goal. 
Then the MCL is set at the level as close to that health goal 
as is technically feasible, and that is where cost and 
technology----
    Mr. Bilbray. The inverse of that, though it is a 25 plus, 
25 to 50 we cannot detect any exposure--I mean any problems 
with the at-risk populations, children, people with compromised 
immune systems or something like that, then we may want to 
rethink the strategy is that?
    Ms. Dougherty. I don't think that study would lead you to 
that conclusion.
    Mr. Bilbray. So we are assuming now that science is showing 
there is going to be adverse impact to this population we are 
doing a study at.
    Ms. Dougherty. I don't think we have actually finished 
the----
    Ms. Noonan. We have not finished.
    Mr. Bilirakis. The time has expired, but without objection 
we can maybe at least get a response to that.
    Mr. Bilbray.  I want to make sure we are not making 
assumptions before we do the study but also look at the study 
that if the study is aimed at the very upper scale, do we have 
another study that we can compare to with the lower scale so we 
have some kind of idea----
    Mr. Bilirakis. Dr. Noonan.
    Ms. Noonan. Let me explain. There is a large body of work 
that already exists on arsenic. The largest compendium of this 
work, as I am sure you know, was compiled for the recent 
National Research Council report on arsenic. There is a very 
large body of epidemiologic work.
    We are expanding that work in the U.S. to make sure that we 
understand what the differences are between U.S. exposed 
populations and populations around the world that have been 
studied for arsenic exposure. We are also conducting analytical 
methods research. The research priorities that we have for 
arsenic match almost exactly to research recommendations that 
the NRC made for additional research in the areas of arsenic, 
and we are conducting those studies as we speak.
    Mr. Bilbray. When do you think they will be done?
    Ms. Noonan. They will be done over the course of the next 
several years. The epidemiological studies take more time than 
perhaps some of the other work in toxicology or methods 
development, et cetera. This is an ongoing set of activities.
    Mr. Bilbray. So I guess the answer is as Michelangelo said 
to the Pope, it will be done when it is done.
    Mr. Bilirakis. The gentleman's time has expired. Dr. Ganske 
to inquire.
    Mr. Ganske. Thank you, Mr. Chairman. Mr. Guerrero, I 
understand EPA previously estimated that there was a drinking 
water research shortfall of $10 million to $20 million over 
fiscal years 1999 to 2005. Now I understand that the agency 
considers this just to be a ballpark figure and that adequate 
funding exists. Mr. Guerrero, do you think the agency has any 
basis in fact or documentary evidence to say that adequate 
funds for research exist?
    Mr. Guerrero. We basically have not seen the plans and 
planning documents that would allow us to make that 
determination ourselves.
    Mr. Ganske. Well, can you fill in the subcommittee about 
this disappearing research gap of $10 to $20 million per year?
    Mr. Guerrero. What the Agency told us is initially they did 
an unconstrained estimate of what the needs would be. It was 
not meant to derive very specific budget figures. When the 
Agency now says their research amounts are sufficient, they are 
saying that--they are putting the important caveat of ``short-
term'' ahead of the word sufficient, leaving open the question, 
as I mentioned in my statement, as to whether their longer term 
needs will be adequately addressed. And the bottom line here is 
it is impossible to tell in the absence of plans with resource 
estimates and plans that link clearly and transparently to the 
budget process.
    Mr. Ganske. But you would say that clearly it is the EPA's 
job to do this planning.
    Mr. Guerrero. Absolutely. In fact, the statute calls for 
the plans we are talking about. And in our opinion, as was 
mentioned earlier, the sooner these plans are available the 
better. As indicated on the other chart that was up earlier, 
the EPA is faced with a number of time-critical decisions over 
the next couple of years. And so to promise these plans in the 
spring of next year and by the end of next year--this comes at 
a fairly late stage in terms of providing the assurance as to 
whether the resources and the funding will be adequate to 
answer the kinds of questions that need to be answered to make 
the regulatory decisions when they need to be made.
    Mr. Ganske. Was there anything in your report to indicate 
why this planning wasn't being done?
    Mr. Guerrero. I would suggest perhaps that EPA speak to 
that point. We will note that they have completed two plans, a 
plan for arsenic and a plan for microbials and disinfection by-
products. Of other plans, one is late. They had promised it 
earlier, and it is going to be a little bit later than they had 
promised. I think they will need to speak to some of the 
difficulties perhaps they faced in not getting those plans out 
earlier than they had expected.
    Mr. Ganske. Your report breaks down the budget requests and 
funding for the Office of Research and Development and the 
Office of Water. Just so I can better understand those numbers, 
where is most of the basic drinking water research now being 
conducted?
    Mr. Guerrero. The majority of it is in the Office of 
Research and Development.
    Mr. Ganske. Did EPA officials tell you that safe drinking 
water funding was adequate?
    Mr. Guerrero. EPA, as I said, testified that the short-term 
resources are adequate. They have told us that the agency 
cannot possibly undertake all of the necessary research. And, 
in fact, you heard from Dr. Noonan about the importance of 
their working closely with key stakeholders in ensuring that 
complementary research is done outside of the Federal 
Government to complement what EPA is doing inside.
    Mr. Ganske. All right. Ms. Noonan, you state that EPA has 
been highly successful in addressing the critical near-term 
research needs and requirements of the 1996 amendments. 
However, the GAO report we have in front of us says you don't 
have a research plan for the contaminant candidate list, that 
you don't have a comprehensive research plan to direct other 
research activities, and that GAO can't tell you if you are 
conducting adequate research or not. Can you present any 
documentary evidence to this committee which backs up your 
statement?
    Ms. Noonan. Mr. Ganske, let me first say that we have 
completed the two highest priority things that were specified 
in the law, the arsenic plan and the microbial/disinfection by-
products plan.
    We are currently developing the contaminant candidate list 
plan and, in fact, a draft of that plan was shared with 
stakeholders at a public meeting less than a month ago. It is 
in development, and I hope you will hear from the stakeholders 
that they had an opportunity to participate meaningfully in the 
creation of the plan for the contaminant candidate list.
    In addition to that, we have two other activities that, I 
believe, answer GAO's criticism.
    First, we are undertaking in several high priority areas 
the development of a multi-year budget planning effort that we 
anticipate for drinking water will be completed in time to 
accompany the fiscal year 2001 budget request which will come 
up here in January. Drinking water is on that list. We hope to 
be able to create a 5-year budget and plan essentially for 
drinking water research.
    In addition to that, we are creating a comprehensive 
drinking water research strategy; the umbrella under which all 
of these pieces will fit. The strategy will describe the 
research needs and priorities associated with current and 
future drinking water regulatory issues and will include the 
research plans for arsenic, MDBP's, the contaminant candidate 
list, the revisions of the current MCL's, and variety of other 
research topic such as disease occurrence, sensitive 
subpopulations, et cetera. That comprehensive strategy which we 
agreed with our Science Advisory Board was needed and which we 
have started work on will engage stakeholders. It will also be 
a guide for us for planning research inside EPA and for our 
colleague agencies and the stakeholders to plan research that 
they want to do.
    Mr. Bilirakis. Please finish up, will you, doctor I know 
you are responding to the question.
    Ms. Noonan. One more thing. And it will assist in 
identifying our out-year GPRA goals which is a key element for 
our planning process to achieve our accountability goals under 
GPRA.
    Mr. Ganske. Mr. Chairman, can Mr. Guerrero respond to that?
    Mr. Bilirakis. Without objection, an additional minute. 
Yes, go ahead.
    Mr. Guerrero. I would want to say that in terms of what you 
just heard, that the EPA is preparing this 5-year budget and 
plan for drinking water as a complement to the drinking water 
research strategy. I think those are clearly the steps in the 
right direction. Those are the kinds of things that we 
identified as missing, and I am pleased to hear that EPA is 
saying they are doing that.
    What I would urge EPA to do is to consider our 
recommendation as they develop that 5-year plan and a 
comprehensive strategy. Specifically, that those strategies and 
plans be very specific as to the research that must be 
accomplished, the timeframes in which it must be done in, the 
resources that are needed to accomplish it, and that they then 
use those plans and strategies to inform the annual budget 
deliberations and provide greater transparency in terms of 
those budget deliberations so the public, you, the Congress, 
and stakeholders can know what is being funded and what is not.
    Mr. Bilirakis. Is there any reason why--Dr. Noonan, why 
that cannot be done?
    Ms. Noonan. Mr. Chairman, all I can say is we will share 
information with external stakeholders to the extent we are 
permitted to do so under the constraints of our budget process.
    Mr. Bilirakis. But it is your budget planning process. It 
is not what Congress has imposed upon you. Isn't that true?
    Ms. Noonan. Well the President's budget, as you know, is 
not to be shared externally until it is ready to go to the 
Congress. I can't say any more than that.
    Mr. Bilirakis. Well, all right. So I guess we are not 
getting an answer to our question. Mr. Deal to inquire.
    Mr. Deal. Thank you, Mr. Chairman. As I understand it, Ms. 
Dougherty, the contaminant candidate list has been prepared 
based on what is referred to as sufficient data under the 
testimony. And there appears to be a determination that the 
regulations of 2001 are going to be made on the basis of those 
contaminants on the list based on sufficient data versus the 
language that was in the 1996 amendment of those that present 
the greatest public health concerns. Is my understanding of 
that correct? If so, how do you reconcile that with the mandate 
in the 1996 act?
    Ms. Dougherty. The way we developed the candidate 
contaminant list was to divide it into two pieces. We have 
about 60 contaminants on that list. For 20 contaminants, we 
believe we have sufficient scientific information from all the 
sources that we could find, and sufficient occurrence data, for 
us to make the regulatory determinations in 2001. For 40 
contaminants, we believe we needed to get more current 
information or more scientific information in terms of research 
either on health effects or analytic methods before we could 
proceed to make a determination.
    We expect that when we make our determinations in 2001, it 
will be from the list of 20. We are required to make 
determinations on at least five contaminants. So we will be 
making judgments on which contaminants present the highest 
human health risk for us to be deciding whether to regulate or 
not, based on the information that we have about all those 
contaminants. We may decide that in between now and 2001 we 
have enough information on some of the contaminants that are in 
that group of 40 to move those up because of the potential 
health risk.
    Mr. Deal. So when section 3 of the 1996 amendment said that 
the existing process for assessment and selection of additional 
drinking water contaminants needs to be revised and improved to 
assure that there is sound scientific basis for setting 
priorities, are you saying that you have done that, or did you 
simply take a list based on existing data or have you reviewed 
it in light of the 1996 language?
    Ms. Dougherty. We reviewed it in light of the 1996 
language. And the list that we came up with was a list based on 
looking at the criteria from the 1996 amendments.
    Mr. Deal. So when you say you made it based on sufficient 
data, you are saying that has been done based on the standard 
of the greatest public health concern then?
    Ms. Dougherty. The contaminants that we have on the list 
are those that we and the stakeholders that were involved in 
our process of developing that list believed were of greatest 
public health concern. We are less certain of some in the group 
of 40, but we decided to put them on the list because we 
thought they were worth looking at further.
    Mr. Deal. Will the regulations apply to them as well even 
though that has not been complete?
    Ms. Dougherty. We are only required to make regulatory 
determinations on at least five. So we will be making our 
regulatory determinations in 2001 on some subset of those 60.
    Mr. Deal. All right. Dr. Noonan, as I understand it, 
research on drinking water constitutes about 6.5 percent of 
your budget. Could you give me an idea of some other categories 
that have a higher priority in your budget than safe drinking 
water issues?
    Ms. Noonan. Actually, Mr. Deal, in fiscal year 2000 
drinking water constitutes 7.8 percent of our budget. I can 
certainly supply a complete breakdown of our budget by 
percentage and goal.
    Mr. Deal. Just give me a few examples of some that have 
higher priority.
    Ms. Noonan. I think one example would be air--air 
contaminants, air pollutants. Particulate matter research has a 
higher priority. Let me put it this way: It has a higher 
percentage of our budget at present but it is also one of our 
highest priority areas.
    Mr. Deal. So air is one area. Then what other--you are 
talking about less than 10 percent of your budget on water. 
Surely there are other bigger categories other than just air.
    Ms. Noonan. We also do a large amount of basic research in 
ecosystem and human health protection that is not associated 
with any particular set of regulatory determinations. This is 
work in understanding the fundamental processes that drive 
ecosystems and drive human health and the kinds of exposure and 
assessment tools that we need in order to position the Agency 
for future determinations or to improve the risk assessments 
and risk management tools that we currently have. That is about 
30 percent of our budget.
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Bilirakis. Mr. Pickering to inquire.
    Mr. Pickering. Thank you, Mr. Chairman.
    Ms. Noonan, if I could, as you know in section 102 of the 
1996 amendments, you were required to list the contaminants 
representing the greatest public health concern is the 
language, the specific language. Yet it seems to me that you 
are making it based on sufficient data. Are you in violation of 
the intent of that? Are you making it based on the greatest 
public health concern? How would you respond to the possibility 
that you are--you could be in violation of section 102 of the 
1996 amendments?
    Ms. Noonan. Mr. Pickering, no, we are not in violation of 
the 1996 amendments. We have considered the public health 
concerns. And I will defer to my colleague in a moment if she 
wants to add something. But the contaminant candidate list was 
developed in close collaboration with stakeholders whose 
considerations were as specified in the act. We use the 
criteria that were set forth in the act to develop the list 
from which we will choose five contaminants. That is correct.
    Ms. Dougherty. At least----
    Ms. Noonan. At least five to actually regulate in fiscal 
year 2001. Cynthia, would you like to----
    Ms. Dougherty. We went through a fairly elaborate process 
for the first contaminant candidate list. We consulted 
stakeholders and outside experts to help us figure out how we 
would carry out the intent of Congress related to that section, 
and we believe that we have done that given the tools that we 
have available now.
    We have also gone to the National Academy of Sciences and 
asked them for their views in terms of how we should do the 
lists in the future to make sure that we use the best 
scientific basis for the decisions that we are making and are 
making the right decisions in terms of public health risks. So 
I think that we have met the requirements of that part of the 
law quite well.
    Mr. Pickering. If I could, GAO if you would respond. Mr. 
Guerrero, do you feel the same as EPA that they are making 
these decisions and based on the greatest personal concern, do 
they have sufficient data to make those determinations?
    Mr. Guerrero. I wouldn't disagree with EPA's 
characterization that they came up with the CCL by following 
the criteria in the act and after consultation with 
stakeholders. But what they have also said in their statement, 
I think, is that they have now narrowed that list down based on 
information available which is precisely our earlier point, 
that if you lack a plan, a long-term and short-term research 
plan, the EPA is going to fall back into the situation it was 
in prior to 1996 amendments where it is regulating based on 
what it knows but not on what it doesn't know and perhaps 
should know in terms of dealing with perhaps higher risks or 
more serious problems to public health.
    So there is always the risk that if you whittle down a list 
as EPA is now doing based on information you do know, that you 
run the risk of ignoring problems that really you should not be 
ignoring.
    Mr. Pickering. Would you like to respond to that.
    Ms. Noonan. I would actually. Thank you. We have not stood 
still, as the contaminant candidate list research plan has been 
determined. We have initiated a lot of work on a variety of 
items on that list. We have initiated research on high priority 
contaminants like: MTBE; emerging pathogens such as the Norwalk 
virus; and the key uncertainties in the areas of health 
effects, analytical methods development and treatment. We have 
shifted intramural resources in 1998 and 1999 with a 
significant increase in 2000 to address CCL research issues.
    We have used our Science to Achieve Results Grant Program 
to get the best minds in the country in the academic community 
thinking about the key scientific uncertainties in this 
program. In fact, in the Star program for 1999, we specifically 
went out with the solicitation for microorganisms in drinking 
water. These are key elements on the contaminant candidate 
list, and a request for new methods to identify and enumerate 
many of those pathogens for which methods to enumerate them 
currently don't exist. We are about to award those grants.
    So we have not been sitting idly by and doing nothing as 
the plan has been in development. We know what the highest 
priority things are. We know where a lot of the uncertainty is. 
We have already put dollars behind those uncertainties to try 
to resolve them in as timely a way as possible.
    Mr. Pickering. I know my time is up Mr. Chairman.
    Mr. Bilirakis. Without objection, Mr. Guerrero, can 
respond.
    Mr. Guerrero. We agree the EPA has research under way. Two 
points I would make in that regard. First, stakeholders were 
concerned that the research that needs to be done to support 
the important CCL determinations was not getting underway as 
quickly as it should. And the second is that I will point out 
that the redirection of funds to do some of this research only 
occurred in this fiscal year, fiscal year 2000. So here you 
have important decisions that need to be made very shortly, 
and, yes there is indeed research underway but that research is 
only coming very close to those decisions.
    Mr. Pickering. Would you say that because of the lack of 
sufficient data, that decisions are being made that could be 
described as arbitrary?
    Mr. Guerrero. I don't believe I could characterize them as 
arbitrary. What I would say is that EPA is falling back on 
making decisions based on the information they have.
    Mr. Pickering. Thank you, Mr. Chairman.
    Mr. Bilirakis. I thank the gentleman. Mr. Lazio to inquire.
    Mr. Lazio. Mr. Chairman, I would like to make a unanimous 
consent request to include my opening statement in the record. 
I am afraid I was unavoidably detained and wasn't able to be 
here so I would ask that statement be included for the record.
    Mr. Bilirakis. Without objection.
    Mr. Brown. And all other opening statements too.
    Mr. Bilirakis. Without objection. I made that comment at 
the beginning.
    Mr. Lazio. Also I want to thank you personally for 
scheduling this hearing. It is a matter of concern to a number 
of us and certainly of great concern to the American people. 
There is, with all the political contest on environmental rules 
and regulations and law, absolute consensus throughout the 
country to have clean air and clean water. And over the next 7 
years, we are going to have many, many of these rules that will 
need to be reviewed for adequacy.
    If I can, I would like to ask the panel; I understand from 
the GAO report that the GAO, in speaking to some water experts, 
have concluded that the research on the effects of certain 
pathogens, disinfectant agents, and disinfection by-products on 
children and pregnant women will not be completed in time for 
the new rules. I am wondering if I can ask for confirmation if 
that is the case. Maybe, Mr. Guerrero, you can begin by 
commenting on that; and then we can ask EPA to comment on, if 
that is the case, when this research will be completed.
    Mr. Guerrero. We did point out in our report that regarding 
the regulations of microbial pathogen disinfectant and 
disinfection by-products many stakeholders commented that some 
of the health effects research and research on sensitive 
subpopulations such as children and pregnant women will not be 
completed in time for the rule.
    Mr. Lazio. Any sense from your base of knowledge of what 
the time line looks like?
    Ms. Crocker. No, we do know that, in some instances, the 
need for this research only recently became known. And that is 
one of the reasons that the research won't be available for the 
upcoming regulatory decision.
    Mr. Lazio. So you have no sense of time line?
    Mr. Guerrero. No. Perhaps Dr. Noonan can respond to that.
    Ms. Noonan. Mr. Lazio, we have had a major focus on 
microbial and disinfection by-products research and its impacts 
on sensitive subpopulations. We have been collaborating not 
only with the National Institutes for Environmental Health 
Sciences but also with the private sector group, the Microbial/
Disinfection By-products Research Council.
    We have been carrying out a number of studies. The ones 
that are being spoken of as not being completed tend to be the 
epidemiology studies which, of necessity, take time. But we 
have a large body of work already on microbial and disinfection 
by-products that is already known and already is completed. And 
we can, of course, supply you with a comprehensive list of all 
of those studies as well as the studies that we are currently 
undertaking to address the issue of sensitive subpopulations.
    [The following was received for the record:]

    Research on sensitive subpopulations has been and continues to be 
an important part of the EPA drinking water research program. This 
research includes a wide range of studies to characterize whether and 
to what degree subpopulations such as infants, children, pregnant 
women, the elderly or individuals with a history of serious illness may 
be likely to experience elevated health risks from exposure to priority 
drinking water contaminants such as disinfection by-products and 
microbial pathogens. As shown in the lists below, many projects to 
evaluate the effects of these contaminants on children and pregnant 
women, including some important epidemiology studies and a large number 
of toxicology studies, have been completed. These studies provide 
important new data to support more scientifically sound regulatory 
decisions for the new drinking water rules that are under development.
    The results of some new research (e.g., the replication of a 
``California-type'' spontaneous abortion study in another part of the 
country) will not be completed until after the near-term regulatory 
deadlines for the Microbial and Disinfection By-Product Rules. This is 
due to the long timeframe that is required to conduct large scale 
studies in human populations, and the fact that this research, like 
other areas of scientific discovery, is interative in nature. The 
completed studies have raised new questions that have served as the 
impetus for the studies that are currently underway. As our 
understanding of these public health risks is being refined, it is 
likely that additional research will be needed to address new questions 
that arise.
    We are in the process of compiling a comprehensive inventory of EPA 
research activities on sensitive subpopulations and drinking water 
risks in preparation for a Report to Congress that will be completed by 
August, 2000, as required by the 1996 Amendments. The following 
projects represent a significant portion of the research that will 
ultimately be described in this Report.
  Completed and Ongoing Studies of Disinfection By-Products (DBPs)and 
                        Risks to Pregnant Women
    Epidemiology and toxicology research to evaluate this potential 
threat to pregnant women has become a major focus of the EPA's drinking 
water health effects research program in recent years. EPA convened two 
expert panels of epidemiologists, toxicologists and exposure assessors 
in 1993 and 1997 to review the existing epidemiology and toxicology 
literature. The panel's research recommendations have been used to 
guide EPA's research program in these areas, with a specific objective 
of providing the types of data that will support more scientifically 
sound regulatory decisions to protect sensitive subpopulations. 
Completed and ongoing studies conducted by EPA investigators or by 
outside scientists with EPA support are listed below:

<bullet> 1998 Epidemiology study in California of spontaneous abortions 
        and exposure to trihalomethanes (Status: Completed)
<bullet> Reanalysis of the same California study populations using 
        improved estimates of exposure (Status: To be completed in 
        early 2000).
<bullet> Replication of a ``California-type'' epidemiology study of 
        drinking water and spontaneous abortions elsewhere in the U.S. 
        This large study is being co-funded by EPA and the American 
        Water Works Association Research Foundation (AWWARF), through 
        the Microbial/Disinfection By-Products Research Council. 
        (Status: To be completed >2002)
<bullet> Epidemiology study of DBP exposures and birth weigh changes in 
        Colorado. (Status: Completed).
<bullet> Identification of geographic areas for additional reproductive 
        epidemiology studies. (Status: Completed).
<bullet> Development of methods for conducting population-based male 
        reproductive epidemiology studies. (Status: Several reports 
        have been published, research continuing).
<bullet> Epidemiology studies of DBP exposures and birth defects, 
        conducted in collaboration with the Centers for Disease Control 
        and Prevention. (Status: Some methods development and pilot-
        scale studies will be completed in 2000, research continuing)
<bullet> EPA has established a comprehensive in-house research program 
        to develop data for assessing the potential reproductive risks 
        associated with exposure to DBPs in drinking water. Screening-
        level toxicity studies are conducted in collaboration with the 
        National Institute of Environmental Health Sciences (NIEHS) to 
        identify DBPs of potential concern. EPA scientists conduct more 
        detailed studies to further characterize the toxicity of 
        priority DBPs. Some of the research that is currently underway 
        includes studies to evaluate the male reproductive effects of 
        the haloacetic acids, outcomes associated with multi-
        generational exposures to DBPs, effects in non-pregnant 
        females, and the effects of mixtures of selected DBPs. A 
        representative listing of completed studies is found below:

    Cummings, A. M. and J.M. Hedge (1998). Dibromoacetic acid does not 
adversely affect early pregnancy in rats. Repro. Toxicol., 12(4): 445-
448.
    Hunter, E.S., E.H. Rogers, J.E. Schmid, and A. Richard (1996). 
Comparative effects of haloacetic acids in whole embryo culture. 
Teratology, 54:57-64.
    Klinefelter, G.R., J.W. Laskey, J. Farrell, J.D. Suarez, and N.L. 
Roberts (1997). Discriminant analysis indicates a single sperm protein 
(SP22) is predictive of fertility following exposure to epididymal 
toxicants. J. Androl., 18(2):139-150.
    Klinefelter, G.R., J.D. Suarez, N.L. Roberts, and A.B. DeAngelo 
(1995). Preliminary screening for the potential of drinking water 
disinfection by-products to alter male reproduction. Repro. Toxicol., 
9:571-578.
    Linder, R.E., G.R. Klinefelter, L.F. Steader, J.D. Suarez, N.L. 
Roberts, and C.J. Dyer (1994). Spermatotoxicity of dibromoacetic acid 
in rats after 14 daily exposures. Repro. Toxicol., 8:251-259.
    Linder, R.E., G.R. Klinefelter, L.F. Strader, J.D. Suarez, N.L. 
Roberts, and C.J. Dyer (1994). Acute spermatogenic effects of 
bromoacetic acids. Fund. Appl. Toxicol., 22:422-430.
    Linder, R.E., G.R. Klinefelter, L.F. Strader, M.G. Narotsky, J.D. 
Suarez, N.L. Roberts, and S.D. Perreault (1995). Dibromoacetic acid 
affects reproductive competence and sperm quality in the male rat. 
Fund. Appl. Toxicol. 28:9-17.
    Linder, R.E., G.R. Klinefelter, L.F. Strader, J.D. Suarez, and N.L. 
Roberts (1997). Spermatotoxicity of dichloroacetic acid. Repro. 
Toxicol., 11:681-688.
    Linder, R.E., G.R. Klinefelter, L.F. Strader, D.N. Rao 
Veeramachaneni, N.L. Roberts, and J.D. Suarez (1997). Histopathological 
changes in the testis of rats exposed to dibromoacetic acid. Repro. 
Toxicol., 11:47-56.
    Narotsky, M.G., R.A. Pegram and R.J. Kavlock (1997). Effect of 
dosing vehicle on the developmental toxicity of bromodichloromethane 
and carbon tetrachloride in rats. Fund. Appl. Toxicol., 40:30-36.
    National Toxicology Program (1998,1999). Results of the NTP short-
term reproductive and developmental toxicity screens for 
bromochloroacetic acid, tribromoacetic acid, chlorodibromomethane, 
bromidichloromethane, bromoacetonitrile, dibromoacetonitrile, and 
sodium bromate.
    Richard, A.M. and E.S. Hunter (1996). Quantitative structure-
activity relationships for the developmental toxicity of haloacetic 
acids in mammalian whole embryo culture. Teratology, 53:352360.
    Welsh, J.E., R.R. Barbee, N.L. Roberts, J.D. Suarez, and G.R. 
Klinefelter (1998). SP22: A novel fertility protein from a highly 
conserved gene family. J. Androl., 19:385393.
 Current Research and Assessment Activities on Sensitive Subpopulation 
                                 Issues
    A number of special analyses are being conducted to provide 
baseline data for identifying vulnerable subpopulations and health 
risks. These assessments have either been completed or will be 
completed in 2000, and will be summarized in the Report to Congress. 
Studies include: a) evaluation of the demographics of sensitive 
subpopulations; b) evaluation of age-related illness and death caused 
by microbial diseases; c) characterization of the chronic effects of 
microbial illnesses; d) evaluation of the potential immunotoxic effects 
of chemical contaminants in drinking water; and e) assessment of water 
consumption rates based on sex, age, racial, ethnic, socioeconomic and 
geographic distributions.
    Laboratory, field, and assessment research on sensitive 
subpopulations is also being conducted on a number of drinking water 
contaminants, as described below. The results of these studies will be 
available in 2000 and beyond.
Research on microbial pathogens
<bullet> Cryptosporidium virulence factors and infective dose in humans
<bullet> Infective dose of Cryptosporidium in immunocompromised hosts
<bullet> Serological tools for Cryptosporidium and emerging pathogens
<bullet> Understanding risk factors for Cryptosporidium: Studies in 
        gnotobiotic pigs
<bullet> Studies of the infectivity of Norwalk and Norwalk-like viruses 
        in humans
<bullet> Molecular probes for studying mycobacteria in biofilms
<bullet> Community enteric disease studies
<bullet> Waterbome disease occurrence studies in the U.S.
Research on disinfection by-products and halocarbons
<bullet> Evaluation of DBPs in a rat model of hereditary renal cancer
<bullet> Effect of glutathione s-transferase genotype on sensitivity to 
        trihalomethanes
<bullet> Comparison of traditional scaling methods and physiological 
        measurements (life stage effects, metabolism)
<bullet> Multi-route exposure model using water-related activity 
        patterns
<bullet> Dietary exposure potential model (also useful for other 
        contaminants, e.g., arsenic)
<bullet> Using biomarkers of exposure and neurobehavioral test 
        batteries to assess children's neurological vulnerability to 
        residential exposure to tetrachloroethyene
<bullet> Increased vulnerability of neonates to naphthalene and its 
        derivatives
<bullet> The elderly as a sensitive subpopulation for halocarbon 
        hepatotoxicity
<bullet> Differences in chemical metabolism as a mediator of human 
        interindividual susceptibility
<bullet> Immunotoxicity of selected DBPs
Research on arsenic
<bullet> Arsenic metabolic profiles in various age groups
<bullet> Strain-dependent disposition of inorganic arsenicElevated 
        levels of heat-shock proteins: Protection of MCF-7 cells from 
        arsenite toxicity
<bullet> Chronic arsenic exposure in drinking water and reproductive 
        effects
<bullet> Effect of dietary folate deficiency on arsenic genotoxicity in 
        mice
<bullet> Effect of nutritional status: selenium deficiency and excess
Research on pesticides (selected examples of relevant research not 
        supported by drinking water resources)
<bullet> Exposure of children to pesticide residues
<bullet> Assessment of interactions and mechanisms of action of 
        mixtures and age-related risks
<bullet> Childhood Exposure Factor Handbook
<bullet> Effect of atrazine on puberty in male and female rats
<bullet> Measuring and apportioning children's exposure to pesticides 
        in urban, suburban and rural communities

    Mr. Lazio. So is it not accurate in testimony that we have 
just heard that you were not aware of the nexus between 
pathogens and disinfection by-products until recently?
    Ms. Noonan. No. The need for the epidemiological research 
and some of the longer term studies was not recognized until 
recently. Miscarriages, this was a result of a study that was 
carried out in California on spontaneous abortion. We are 
currently in the process of replicating that study in other 
parts of the U.S. as well as reanalyzing the data from that 
original study to see whether or not it holds up under 
analysis.
    Mr. Lazio. It appears to me that the fact that the act gave 
you specific direction in terms of pathogens and disinfection 
by-products----
    Ms. Dougherty. We have been working on rules related to 
pathogens and disinfection by-products for a number of years. 
The changes in the Safe Drinking Water Act recognize the work 
that has been ongoing and pushed us to continue to deal with 
those issues in the stakeholder forum that we have had for 
several years, and also asked us to make sure that we were 
dealing with the research that we laid out in the research plan 
that we have done some time ago. We have been continuing all 
that work. The research related to miscarriages and possible 
reproductive effects are new results, and we are trying to 
follow up on that, as Dr. Noonan said as well.
    Mr. Lazio. So you were not particularly focusing on 
sensitive subpopulations?
    Ms. Noonan. We were focused on sensitive subpopulations in 
general. But I think results from the recent California study 
have increased our focus on this particular aspect.
    Mr. Lazio. Let me just----
    Mr. Bilirakis. Very quickly now.
    Mr. Lazio. Last question because this has not been 
answered, but thank you, Mr. Chairman, for your indulgence. Can 
you give us a sense of a time line, can you give us a sense 
when, or at what threshold that we might pass, where the 
committee would be frustrated with your lack of progress to a 
point where we would ask the chairman to reconvene again for 
the purposes of answering as to the status?
    Ms. Noonan. I am sorry, I am----
    Mr. Lazio. When can you have it done?
    Ms. Noonan. The abortion study? The research?
    Mr. Lazio. The epidemiological research, that the research 
has to be completed for purposes of assessing the effects of 
pathogen and disinfectants on pregnant women.
    Ms. Noonan. Some of the small studies will be completed in 
the next couple of years. The larger epidemiologic study is on 
a time line to be completed within the next 3 to 4 years.
    Mr. Lazio. I hope we can do better than that, Mr. Chairman.
    Mr. Bilirakis. We recognize that we are an ivory tower 
quite often as we are not as realistic or as practical as we 
maybe could be. But, you know, it seems like it should be 
shared with us somewhere along the line that possibly the 
demands of the 1996 act may be--might be unrealistic.
    The gentleman, Mr. Engel, is not a member of this 
subcommittee, but he has requested to inquire. And the Chair 
now recognizes him.
    Mr. Engel. Thank you, Mr. Chairman. I thank you and the 
ranking member. And as a member of the Commerce Committee, I am 
obviously very concerned about these amendments; and even 
though I am not a member of this subcommittee, we have been 
having a long-standing fight in my district against water 
filtration. And the whole hearing on implementation of the safe 
drinking water amendments, Chairman Bliley requested that GAO 
responds to how EPA is utilizing the newly authorized funding 
availability as a result of a number of these amendments. And 
the GAO report indicates that the EPA is not fully utilizing 
available resources to research and development of filtration 
alternatives.
    We are very concerned about alternatives to filtration 
because we believe that where filtration is mandated--
particularly the ongoing fight in my district in New York and 
in the Bronx, we believe that that there be can filtration 
avoidance.
    So I would like to ask Dr. Noonan and/or Ms. Dougherty why 
isn't the money authorized in the 1996 reauthorization of the 
Safe Drinking Water Act for the New York City watershed 
protection program being utilized since I believe it could lead 
to findings that could provide, alternatives to filtration?
    The language, on its face, provides $15 million a year for 
projects throughout New York State including the Croton 
Watershed. And EPA has not requested any money or the program 
and Congress has only appropriated a few million dollars for 
it. So why hasn't EPA requested it? Why isn't the money being 
utilized for alternative to filtration?
    Ms. Dougherty. Those funds were included in the 
authorizations under the Safe Drinking Water Act amendments to 
provide funding for demonstration projects that were 
implemented as part of the watershed program for protection and 
enhancement of the quality of source waters for New York City. 
Specifically related to New York City's compliance with the 
filtration avoidance that they have for the Catskill-Delaware 
watershed. And EPA has not requested funding in its budget for 
that authorization along with a number of other authorizations 
in the safe drinking water amendments because we have had to 
make decisions within the budget in terms of what are the 
highest priorities for funding that we needed to request.
    And our focus has been on dealing with the regulatory 
efforts both in terms of research and developing regulations 
and with the funding for the States for the State revolving 
loan fund as well as with making sure States get their full 
public water systems provision grants.
    Mr. Engel. The fact of the matter is that $15 million is 
there, and I understand if there are priorities--if all $15 
million are requested, but when only $1 million of the $15 
million is requested, it would seem to me there is plenty of 
room to look at the Croton Watershed System besides Delaware 
Catskill. As you know there was an agreement worked out for 
filtration avoidance for the Delaware-Catskill system. And we 
believe the request can be worked out for the Croton as well. 
So I believe that the EPA has been really remiss in not looking 
for the possibility of alternatives to filtration, and I don't 
feel that EPA is conducting adequate research and development 
in the area of filtration avoidance. So I would like to know, 
do you feel you are? And if not, why not?
    Ms. Dougherty. I believe we may be doing some work in terms 
of source water protection but nothing specifically related to 
filtration avoidance. And the authorization for the $15 million 
is specifically related for monitoring work to demonstrate that 
the filtration avoidance plan, the watershed plan program that 
the city is carrying out, in fact, is sufficient to support the 
filtration avoidance that the city has for the Catskill-
Delaware watershed and not to demonstrate that there are ways 
to get further filtration avoidance.
    Mr. Engel. Let me just say because I see the light is on, I 
really think that EPA ought to be doing what I have suggested. 
And I want to just also say that I have legislation which would 
allow for the waiver of 1991 requiring filtration to be 
preempted. I think with all the research and new developments, 
it is ludicrous to be locked out of any kind of filtration 
avoidance if it can be proven that filtration is not needed. No 
one is suggesting that if filtration is needed it shouldn't be 
done, but I have very serious doubts as to whether it is 
needed. And I just don't think that the EPA ought to continue 
to sit tight.
    And certainly when there are $14 million of money that can 
be requested, perhaps $1 or $2 million could provide us with a 
solution to this. I just think EPA is hiding behind language 
and hiding behind laws, and I don't think that is very 
admirable. And I wish you would take this back to Carol Brown. 
She knows of my annoyance with it, but I really think that 
something needs to be done because it is an untenable 
situation.
    I thank the chairman for his indulgence. I ask that my 
opening statement be allowed to go into the record.
    Mr. Deal [presiding]. Without objection.
    [The prepared statement of Eliot Engel follows:]
Prepared Statement of Hon. Eliot L. Engel, a Representative in Congress 
                       from the State of New York
    Mr. Chairman, I would like to express my strong support and 
appreciation for this hearing today. On numerous occasions I have 
spoken out about the need for increased research and development of 
filtration alternatives. It appears as I review the GAO report before 
us today that those appeals may have fallen on deaf ears. I am 
extremely disturbed by the fact that residents of my district may be 
forced to live with an extremely obtrusive and environmentally 
destructive filtration plant because proper research and development on 
filtration alternatives has not been conducted.
    As you may know, the EPA determined that the Croton Watershed, in 
New York State, was not in compliance with federal water standards. In 
order to avoid building the filtration plant New York City had to apply 
for a waiver prior to the 1991 deadline. Unfortunately, they did not. 
Therefore, EPA has stipulated that New York City must build a $1 
billion filtration plant for the Croton system.
    Mr. Chairman I am deeply concerned about the impact of this plant 
on the residents of my district. I am further troubled by the findings 
before us today in the GAO report which suggest that EPA is not fully 
utilizing the resources available to conduct research and development 
that could lead to filtration alternatives. I have repeatedly raised 
this issue because I feel it is a travesty to impose such an 
environmentally destructive facility to an urban community with such 
little recreational space, while alternative methods might be 
available.
    Although not meeting the 1991 deadline, New York City could have 
demonstrated that the Croton System had exceptional water quality and 
that quality could be protected without filtration by implementing 
strict watershed protection measures. Given the research that EPA has 
done since 1991 and the potential to conduct more extensive research 
and development with funding in the reauthorization of the Safe 
Drinking Water Act in 1996, I remain optimistic that an alternative can 
be found.
    Mr. Chairman, I don't believe anyone wants to impose a water 
filtration plant on any community if it is not necessary. There are 
serious health concerns to take into consideration. For instance, the 
Bronx has an extremely high rate of asthma, in some part due to the 
congestion that residents must endure daily. Construction and 
implementation of the plant will only increase congestion and pollution 
adding to this problem.
    I am aware that there are several alternatives to filtration that 
will ensure water quality meets EPA standards. A number of outside 
organizations have indicated that alternatives would be more reliable, 
cheaper and less destructive to the surrounding community. Mr. 
Chairman, fellow colleagues, I am committed to ensuring safe drinking 
water standards are upheld. However, if alternatives can achieve the 
same goal with little or no damage to the surrounding community, the 
alternative should be used.
    To that end, I have introduced legislation that would enable 
localities to apply to the state for filtration avoidance based on 
information, technology, or evidence not available prior to 
implementation of EPA's filtration standards. Therefore, filtration 
avoidance measures could be implemented rather than the construction of 
an unnecessary filtration plant, if studies show EPA's drinking water 
requirements were met.
    I firmly believe that this matter must be reconsidered. Chairman 
Bliley has expressed a willingness to work with me on my legislation 
and I look forward to working within the Committee to find a viable 
solution. I also welcome any suggestions or comments the EPA has to 
offer and will gladly meet to discuss this issue further.

    Mr. Deal. I would like to thank the panel for appearing 
before the committee today especially on behalf of the 
chairman, we appreciate your appearance. I would remind you 
there may be questions submitted from the panel to you, and we 
would request and appreciate your written response to those 
inquiries. Once again, thanks to the members of the panel.
    And we will now ask the second panel if they would assume 
their positions at the table.
    I would like to welcome our second panel today. First of 
all, Mr. John H. Sullivan, the deputy executive director of the 
American Water Works Association; and he is appearing on behalf 
of the Association of Metropolitan Water Agencies and the 
National Association of Water Companies. Mr. Eric D. Olson is 
the senior attorney of the Natural Resource Defense Council 
here in Washington. I will call on my colleague Mr. Bilbray to 
introduce our third panelist.
    Mr. Bilbray. Yes, Mr. Chairman. I would have the honor at 
this time to introduce Mr. Hall as executive director of the 
Association of California Water Agencies. He resides way up 
north, 600 miles north of my little corner of the world in 
Sacramento. And I also would ask Mr. Hall somewhere during the 
day--I have to apologize, Mr. Chairman, because I have got to 
be at another function--but I would ask that somewhere in the 
testimony that Mr. Hall be given time to articulate what 
California is doing specifically in their very aggressive 
program to address the underground tank issue and the program 
to abate drinking water contamination with their program there 
in California.
    I know that this committee has either directly or 
indirectly discussed this issue not just in California but 
nationally. I think Mr. Hall may have some information that 
will help us in working out our--as we address other issues 
directly related to protecting the groundwater. And Mr. Hall 
will obviously be able to talk about the other issues related 
to today's testimony. Thank you, Mr. Chairman.
    Mr. Deal. Thank you. Gentlemen we are pleased to have you 
with us today. Mr. Sullivan we will begin with your testimony.

   STATEMENTS OF JOHN H. SULLIVAN, DEPUTY EXECUTIVE DIRECTOR, 
 AMERICAN WATER WORKS ASSOCIATION ON BEHALF OF ASSOCIATION OF 
  METROPOLITAN WATER AGENCIES, NATIONAL ASSOCIATION OF WATER 
COMPANIES; STEPHEN K. HALL, EXECUTIVE DIRECTOR, ASSOCIATION OF 
CALIFORNIA WATER AGENCIES; AND ERIK D. OLSON, SENIOR ATTORNEY, 
                NATURAL RESOURCE DEFENSE COUNCIL

    Mr. Sullivan. Thank you, Mr. Chairman. As you indicated, I 
am Jack Sullivan. I am the deputy executive director the 
American Water Works Association. I am here today representing 
the three organizations that you mentioned.
    Back in the early part of this decade, many of us worked 
very, very hard on the 1996 Safe Drinking Water Act Amendments 
to ensure that the basic principle, one of the founding 
principles of the amendments would be sound science. In order 
to ensure that sound science--and people have all sorts of 
different interpretations as to what sound science is--but in 
order to ensure that sound science is adequate, there needs to 
be some type of process.
    First of all, you need a decisionmaking procedure where the 
information needs are enumerated along with the deadlines that 
you want to meet as far as regulatory action is concerned. You 
should then determine exactly what research is required to meet 
those information needs in the timeframe that is designated and 
at what cost. Then you come to the execution phase of that 
plan, and you have to, of course, resource it adequately. And 
if you don't, then you must slip the deadlines.
    That sounds very simple. In the ideal world, that is the 
way it would work. In the real world, I think you heard from 
the GAO what some of the problems are, and I think their report 
appears to be quite accurate. EPA is working hard on trying to 
get this thing together. And they are doing that with the 
stakeholders. As Dr. Noonan indicated, we have been intimately 
involved with EPA on the candidate list, the contaminant 
candidate list, research planning and with other efforts. But 
this needs to continue, there needs to be an extensive total 
plan for research. And this is not a new concept. This goes 
back decades.
    If you go back and look at some of the testimony to this 
committee in the late 1980's, you will find that the same 
research problems existed. It is a highly complex issue. There 
are a lot of people trying to work this issue both in EPA and 
outside of EPA. But the bottom line is we are still having to 
negotiate sound science. It is not all there. And I think you 
will hear that from some of the other members of the panel as 
well.
    Yes, EPA is doing a laudable job. And you will read in our 
testimony, we commend them for it for their public involvement 
and for meeting some of the deadlines. But you must remember 
that we are dealing with public health. And it is not just a 
deadline of putting forth the regulation. It is compliance with 
the regulation that is important.
    And we are facing the horrendous problem of compliance with 
a lot of regulations that are going to hit the street and 
affect those tens of thousands of small communities, some of 
which you represent in the future. And that is the near-term 
future. In the years 2003 to 2005, you are going to see a lot 
of this. Arsenic was on this side, the chart was that side from 
GAO.
    We really won't know what the fruit of our efforts are and 
what the fruit of EPA's efforts are until that timeframe and 
probably beyond. What we do now is we don't have all the 
answers we need for the discussions we are involved in, 
internal to EPA or even external. We need sound science because 
we can't afford to be wrong. What we are dealing with is 
drinking water quality and we must pay for it and make sure 
that the public choices that are made are the right choices.
    I would like to thank the committee for the opportunity to 
be here. And we certainly will be available to answer any 
questions.
    [The prepared statement of John H. Sullivan follows:]
Prepared Statement of John H. Sullivan on Behalf of the American Water 
Works Association, The Association of Metropolitan Water Agencies, and 
              The National Association of Water Companies
                              introduction
    Good morning Mr. Chairman. I am John H. Sullivan, Deputy Executive 
Director for Government Affairs of the American Water Works 
Association. I am here today on behalf of the American Water Works 
Association (AWWA), the Association of Metropolitan Water Agencies 
(AMWA) and the National Association of Water Companies (NAWC). We 
appreciate the opportunity to present our views on the implementation 
of the Safe Drinking Water Act (SDWA) Amendments of 1996. Moreover, we 
sincerely appreciate the Chairman's leadership on this very important 
issue. Your involvement, Mr. Chairman has been essential to making 
drinking water research a high priority.
    AWWA is the world's largest and oldest scientific and educational 
association representing drinking water supply professionals. The 
association's 56,000 members are comprised of administrators, utility 
operators, professional engineers, contractors, manufacturers, 
scientists, professors and health professionals. The association's 
membership includes over 4,000 utilities which provides over 80 percent 
of the nation's drinking water. Since our founding in 1881, AWWA and 
its members have been dedicated to providing safe drinking water.
    AMWA is a non-profit organization composed of the nation's largest, 
publicly owned and municipal drinking water suppliers. Member agencies 
are represented by the directors and managers and supply clean, safe 
drinking water to nearly 120 million Americans.
    NAWC is the nonprofit trade association that exclusively represents 
the nation's private and investor-owned drinking water utility 
industry. Its membership of over 300 companies in 42 states provides 
drinking water to nearly 21 million Americans every day. The NAWC 
serves as the ambassador for the $3 billion industry that employs 
15,000 people.
    AWWA, AMWA and NAWC utility members are regulated under the Safe 
Drinking Water Act (SDWA) and other statutes. We believe few 
environmental activities are more important to the health of this 
country than assuring the protection of water supply sources, and the 
treatment and distribution of a safe and healthful supply of drinking 
water. AWWA, AMWA and NAWC strongly believe that the successful 
implementation of the reforms in the SDWA Amendments of 1996 is 
essential to providing safe and affordable drinking water. Your 
continued leadership on SDWA issues is a major factor in the 
implementation of the SDWA Amendments of 1996.
                       epa drinking water program
    The Environmental Protection Agency (EPA) drinking water program 
took on greatly increased responsibilities in the 1996 SDWA amendments. 
These responsibilities included developing a regulatory process 
requiring additional science and risk analysis for regulations, 
creating a contaminant occurrence data base and methodology to select 
contaminants for regulation, promulgating microbial and disinfectant/
disinfection by-products regulations, and identifying new treatment 
technologies for small systems. In addition to these research related 
responsibilities, EPA took on responsibilities for administering the 
newly created drinking water state revolving fund and developing 
regulations and guidelines for consumer confidence reports, operator 
certification programs, source water assessment and monitoring relief.
    In satisfying these requirements, EPA has involved the public in 
the regulatory process to an extent not equalled by any other federal 
agency and stands as a model for federal rule making. EPA has involved 
private citizens, scientists, drinking water professionals, medical 
professionals, public health officials, economists, and environmental 
and consumer advocacy representatives, as well as other experts, to 
provide recommendations on how to carry out these new regulatory 
responsibilities. AWWA, AMWA and NAWC believe that the EPA Office of 
Groundwater and Drinking Water has made a good faith effort to 
implement the spirit and intent of the 1996 SDWA Amendments. The EPA 
Office of Groundwater and Drinking Water is to be commended for taking 
this exemplary approach for public involvement which should result in 
better regulations that protect public health.
    Many of the new regulations are either in their infancy or not yet 
promulgated, so there is not yet much experience to determine whether a 
specific regulation will work as intended in accordance with the 1996 
SDWA reforms. However, we have a major concern that there may not be 
enough research conducted in a timely manner to support new contaminant 
regulations. We believe EPA's efforts to fulfill the science and 
research mandate of the SDWA Amendments of 1996 are inadequate. In this 
statement, we will focus on the drinking water research needs and 
highlight some regulations of concern.
                        drinking water research
    The use of best-available, peer-reviewed good science as the 
foundation of the new drinking water standard-setting process under the 
SDWA amendments of 1996 will require extensive drinking water 
research--particularly health effects research. Funding for drinking 
water research is becoming more of a critical issue. The 1996 SDWA 
Amendments require EPA to develop comprehensive research plans for 
Microbial/Disinfection By-Products (M/DBP) and arsenic. In addition, 
the SDWA amendments require EPA to utilize health effects data to 
identify contaminants for future regulation and for setting drinking 
water goals and standards. And for the first time, the law gives EPA 
the discretion to consider risk trade-offs and to set standards based 
on such data.
    However, we are seriously concerned that without increased drinking 
water research funding over the next several years and a comprehensive 
drinking water research plan, statutory deadlines for regulating 
contaminants will force EPA to promulgate regulations that are not 
based good science. For instance, there is great concern that research 
to support standards for arsenic and M/DBP regulations will not be 
completed in time to be fully taken into account by the rulemaking 
process. With regard to arsenic research in particular, responses to 
questions put to the EPA by the Commerce Committee Chairman, have left 
us frustrated.
    These general concerns are also shared by others. The National 
Drinking Water Advisory Council (NDWAC) has concluded that:
          ``[S]hortfalls in the [drinking water] program's funding and 
        research to support basic SDWA public health objectives . . . 
        will substantially hinder attainment of the SDWA quality and 
        sound science requirements or will result in missing statutory 
        deadlines for priority rulemakings.
          ``A comprehensive, targeted and fully funded research program 
        on drinking water health effects, exposure, treatment and 
        analytic methods is essential to the success of the new 
        statutory framework and to achieving the full potential of the 
        SDWA reform.''
    The vast majority of EPA's ongoing drinking water research is 
related to the M/DBP cluster of regulations and arsenic. EPA has 
established innovative research partnerships with the AWWA Research 
Foundation (AWWARF) and the Association of California Water Agencies 
(ACWA) on these two issues. Much of the increases for drinking water 
research in recent years has been to fund new research for the M/DBP 
cluster of regulations and arsenic. However, the research may be too 
little too late to be of use prior to the statutory deadlines for these 
regulations. Furthermore, there is concern that research to support 
other priority regulations such as radon, other radionuclides, filter 
backwash and future contaminants will not be done in time.
    Developing a comprehensive drinking water research plan (besides 
the M/DBP and arsenic plans) that is linked to key regulatory decision-
making information needs and the Congressionally imposed deadlines is 
essential. In February 1998, EPA finalized the first Contaminant 
Candidate List (CCL) which contained 61 contaminants that could be 
considered for future regulations. Of those 61 contaminants, only 20 
have adequate information to move forward in the standard setting 
process. The balance of the contaminants (including such important 
contaminant as MTBE and acetochlor) need additional health effects, 
treatment, analytical methods, and occurrence research. A comprehensive 
research plan for this large number of contaminants needs to be 
completed, peer-reviewed, adequately resourced and then implemented.
    In general, accurate estimates of funding needs for drinking water 
research have been unavailable. Recognizing this, the drinking water 
community, through the AWWA Research Foundation and EPA recently 
cosponsored the Drinking Water Research Needs Expert Workshop to 
identify drinking water research needs and establish priorities to 
scientifically address research gaps. The major focus of the workshop 
was on contaminants on the current CCL. The specific goals of the 
workshop were (1) to identify and prioritize drinking water research 
needs related to unregulated drinking water contaminants; (2) describe 
the proper sequencing for the studies; and (3) develop budget estimates 
for the studies to the extent possible. The results of the workshop are 
being compiled and we look forward to sharing them with you as soon as 
possible. The results, when they are available, should provide better 
insight into the drinking water research funding shortfall. However, 
this funding shortfall does not begin to address the research needs to 
develop the next CCL and to get ahead of the curve on emerging 
contaminants. This workshop process needs to be formalized and extended 
to identifying research needs for the next CCL as quickly as possible.
    Increased funding for drinking water research will be needed to 
implement a comprehensive research plan. An estimated total of $150 
million is needed just for full execution of the M/DBP and arsenic 
research plans. The total funding need for a comprehensive research 
plan has not been fully developed at this time. The accuracy of EPA 
estimates that we used in testimony before this subcommittee in October 
1998 to identify a drinking water research funding shortfall have been 
questioned. Regardless, there are indications that a funding shortfall 
for drinking water research to support all future projected regulations 
will certainly begin in FY 2001 unless EPA recognizes the increased 
need for additional research funds in its budget request and increased 
funding is appropriated. If EPA's budget requests for FY 2001 and 
beyond are similar to recent requests, EPA will not have the needed 
resources to implement a comprehensive research plan and fulfill 
Congress's 1996 mandate for science-based decision-making. We note that 
Congress has appropriated $2 million above the EPA request for drinking 
water research in the FY 2000 appropriations.
    Congress and EPA need to break the cycle of the necessary research 
being behind the regulatory development process. An integrated, 
comprehensive drinking water research program is needed. Research 
schedules that meet regulatory needs must be developed. A realistic 
research tracking system needs to be developed so that accountability 
can be built into the process. Sufficient resources must be provided to 
assure adequate research or statutory deadlines must be adjusted 
accordingly. Sufficient appropriations, Congressional oversight and 
realistic statutory deadlines will better enable EPA, the drinking 
water community and consumers to work together to ensure that sound 
science yields the most appropriate regulations and practices possible 
for the provisions of safe drinking water for all the people in 
America.
    With regard to the recent US General Accounting Office (GAO) report 
on Drinking Water Research (GAO/RCED-99-273), we thank you, Mr. 
Chairman, for calling on GAO to conduct an impartial study of drinking 
water research. We have only briefly reviewed the report but it appears 
to parallel the concerns that we have raised in this statement and with 
EPA for several years. We will review the report more closely and would 
be happy to comment on it.
    AWWA, AMWA and NAWC commend the subcommittee for holding this 
oversight hearing on the important issue of drinking water research. 
Let me conclude by reaffirming our support for Congress's good science 
mandate and our commitment to help EPA determine its research needs. 
But once these needs are identified, it will be up to EPA to request 
from Congress the necessary increase in funding. We ask Congress to 
continue to satisfy the EPA request for drinking water research funds. 
We believe that continued Congressional oversight and appropriations 
and implementing the recommendations in the GAO report will lead to 
improvements in the drinking water research program to better meet the 
requirements of the 1996 SDWA amendments and benefit the American 
people.
                                summary
    In conclusion, I want to highlight the main points of the 
testimony:

--AWWA, AMWA and NAWC believe that the EPA Office of Groundwater and 
        Drinking Water has made a good faith effort to implement the 
        spirit and intent of the 1996 SDWA Amendments.
--AWWA, AMWA and NAWC have a major concern that the EPA drinking water 
        research program is not funded at a level adequate to provide 
        the good science necessary to support new contaminant 
        regulations.
--AWWA, AMWA and NAWC recommend that (1) EPA develop an integrated, 
        comprehensive drinking water research plan; (2) include funding 
        for the plan in its annual budget request; and (3) that 
        Congress fund the plan through appropriations.
    This concludes our statement on drinking water research to support 
the implementation of the 1996 Safe Drinking Water Act Amendments. I 
would be pleased to answer any questions or provide additional material 
for the committee.

    Mr. Deal. I thank the gentleman.
    Mr. Hall.

                  STATEMENT OF STEPHEN K. HALL

    Mr. Hall. Thank you. And I thank the committee for inviting 
us to testify. I first want to associate myself with the 
comments of Mr. Sullivan because I concur in his remarks.
    We are here today representing the public water systems in 
California. And like many across the country, we hailed the 
amendments to the Safe Drinking Water Act that were passed in 
1996 because we believed that they would give us a flexible 
regulatory regime, based on sound science, that would result in 
cost-effective protection of public health through drinking 
water supplies, and that they would improve the outreach 
conducted by EPA to the stakeholder groups in planning and 
implementing those rules.
    It is a little too soon to pass judgment on how it all is 
working. But the 1996 amendments clearly have helped. They have 
provided greater assistance to small communities which badly 
need financial and technical assistance and resulted in better 
trained treatment plan operators. And EPA has done a better job 
to reaching out to all of the stakeholder groups.
    However, on the flip side of that, EPA is still not 
spending adequate time or resources to develop sound science to 
support drinking water rules. Sound science that is vital to 
ensure that scarce public dollars are used to maximum benefit 
to ensure public health. The best examples of this situation, 
in our view, are in radon and arsenic. On radon, Congress 
recognized that the potential cost of compliance with radon 
regulations could be extremely high. So they directed EPA to 
exercise flexibility that the law provided to set a standard 
that could be complied with feasibly.
    EPA has just released its proposed radon rule. It is a very 
low standard which we believe is not supported by sound 
science. EPA did not consider cost benefit relationships in 
setting this rule, and they appear to be trying to regulate 
airborne radon through drinking water regulations. We don't 
believe this is appropriate and what Congress intended with the 
1996 amendments.
    We have similar concerns on arsenic which I think have been 
adequately documented here today. Clearly the existing standard 
for arsenic needs to be lower. And we have partnered with EPA 
and with the AWWA Research Foundation to conduct the research 
necessary to develop the sound science to support a lower but 
science-based arsenic rule. Unfortunately, much of that 
research will not be done before the rule is proposed.
    We want to go, as public water providers, where the science 
leads us. If it leads us to an extremely low number, if that is 
what is needed to protect public health, we will support that. 
But we have to let the science do its job, and it has to have 
the time necessary to do it.
    On the flip side of this, EPA appears to be, in the case of 
MTBE, attempting to clean up our air but not paying quite 
enough attention to what MTBE is doing to our drinking water. 
In California, literally thousands of wells have been 
contaminated with the MTBE. EPA, in our view, has to act 
quickly to give the States flexibility to meet clean air 
standards without constituents that foul our drinking water. 
That is where we are supporting H.R. 11 by Congressman Bilbray 
and the companion measure by Senator Diane Feinstein that would 
give us that flexibility.
    The bottom line from our stand point is that too often the 
cumulative effect of rules that have not been adequately 
coordinated by EPA has huge financial impacts on drinking water 
providers without receiving a commensurate benefit on behalf of 
public health.
    We appreciate the work Congress did in the 1996 amendments 
to provide more cost effective rules to better protect public 
health. And we look forward to working with Congress and EPA to 
refining the way the law is administered to assure that what 
Congress has directed is properly carried out.
    Now, if I may, let me just address the request of 
Congressman Bilbray with regard to the program in California on 
underground tanks. It is particularly relevant on the MTBE 
issue. For several years--with the Chair's indulgence I will 
continue. For several years, California has had one of the 
strongest underground tank leakage detection and prevention 
programs in the country. This year, based on the legislation 
that my organization sponsored, those very strict standards 
were upgraded even further in large part because of the concern 
about the presence of MTBE in groundwater. We have done 
everything we know how to do to adequately protect groundwater 
from leaking tanks. In fact, in the Santa Clara Bay Area of 
California, they had a very large percentage of compliance of 
the rules; and yet they were still finding MTBE in their 
groundwater despite having virtual state-of-the-art leak 
detection monitoring and enforcement programs.
    In our view, we have gone to extraordinary lengths to 
protect against leaking tanks, despite that we are finding MTBE 
in a growing number of wells throughout California which is why 
my testimony reflected our support for bills to give us the 
flexibility to meet clean air standards without including MTBE 
in our gasoline. Thank you.
    [The prepared statement of Stephen K. Hall follows:]
Prepared Statement of Stephen K. Hall, Executive Director, Association 
                      of California Water Agencies
    Mr. Chairman, members of subcommittee, my name is Steve Hall and I 
am the Executive Director of the Association of California Water 
Agencies (ACWA). I am testifying today to share with you the California 
water community's perspective on and some of its concerns with the 
implementation of the Safe Drinking Water Act Amendments of 1996 and 
the research performed to support that implementation. ACWA represents 
more than 440 urban and agricultural water utilities throughout the 
State of California, which deliver more than 90 percent of the water 
either supplied or distributed in California.
    The water community generally hailed the passage of the Safe 
Drinking Water Act Amendments of 1996 as a major improvement in the 
foundation for regulating the nation's drinking water. Water suppliers, 
including most of our members, felt that at last we would have 
reasonable, flexible regulations, based on sound science that would 
protect drinking water in a cost-effective manner. We were further 
encouraged because the amendments directed that the regulators improve 
their public outreach program and that stakeholder participation be a 
significant part of the rulemaking process.
    Admittedly, it is still a bit soon to make a final judgement on how 
it is working out. But we believe it is a good time for a progress 
report, and we are pleased to have this opportunity to tell you of some 
things that we think are going well and some things that, from our 
perspective, are not going well.
    The protection of drinking water is enhanced by the State Revolving 
Fund in the 1996 Amendments, and EPA and the state have acted 
effectively to move these funds into communities that need the help in 
improving their systems. In addition, the Amendments provide for an 
operator certification program that will result in better trained 
operators to help ensure better quality water.
    The U.S. Environmental Protection Agency (EPA) for the most part 
has been heroic in its public outreach and stakeholder participation 
efforts. There have been more public meetings and stakeholder workshops 
and more consultation with groups such as ours than ever before. The 
rule managers developing the new regulation for radon have particularly 
stood out in this regard. They have been willing to speak with and 
before water supply groups and other interested groups as often as they 
are asked. They have participated in teleconferences and have made one-
on-one phone calls when they needed a specific piece of information or 
clarification of some point or perspective.
    But not all the examples are so shining. There is a concern within 
the California water community that a lack of sufficient resources for 
necessary research may result in EPA making regulatory decisions before 
receiving the benefit of sound science. This is especially important 
because sound science can indicate whether more or less scarce public 
resources are needed to achieve public health protections. Furthermore, 
California's water community is also concerned by a lack of 
organization and communication between the individual EPA rulemakers. 
For example, our members who have groundwater facilities and are 
especially interested in the proposed radon rule have been deeply 
concerned and alarmed when different rule managers, working on separate 
rules that impact groundwater, schedule West Coast workshops on the 
same day and at the same time 500 miles apart. We think it a case of 
good intent but poor implementation resulting from a lack of 
coordination among the rule managers. Concurrent rulemakings need to be 
coordinated and maybe even consolidated so that such conflicts can be 
avoided and, perhaps even more important, cumulative impacts of such 
rules can be appropriately considered.
    There are two on-going drinking water rulemaking processes that we 
particularly want to call to the Subcommittee's attention and where 
improvement is needed--those for radon and arsenic. We have conducted 
studies on both contaminants that indicate each has the potential of 
costing the people of our state billions of dollars. We have closely 
followed the processes involving these substances for most of this 
decade.
                                 radon
    One of the hallmarks of the Safe Drinking Water Act Amendments of 
1996, we felt, was the direction given by Congress for regulating 
drinking water in radon. The radon regulation is just at the proposal 
stage, but it has been in the works for years and, for all practical 
purposes, is the first rule under the requirements enacted in 1996. For 
that reason, I would like to dwell on it a bit longer than I will other 
topics.
    In developing the 1996 Amendments, Congress recognized that the 
major health threat from radon is from inhalation of radon in the air 
and that water is a very minor contributor to radon in the air (only 2% 
of radon in indoor air). We believe that EPA has recognized that too, 
but water is where they had authority to regulate radon. The 1996 
Amendments dealt with all these concerns by authorizing an alternative 
radon regulation if a particularly low maximum contaminant level is set 
for radon in drinking water. That alternative regulation could allow 
for water suppliers to meet a much higher contaminant level if their 
state or, if their state choose not to, the water suppliers themselves 
implement a multi-media mitigation program. The 1996 Amendments also 
direct EPA to develop drinking water regulations on sound, peer 
reviewed science and cost-benefit analyses.
    While we have commended the radon rule managers for their public 
and stakeholder outreach, we are deeply concerned about the actual rule 
being proposed, and we think Congress should be concerned too. 
Following are some of the problems we have identified:

<bullet> Despite the fact that Congress provided EPA the flexibility to 
        set a higher standard, the rule managers have advised us that 
        an extremely low maximum contaminant level will be set for 
        radon. We don't think that was what Congress intended.
<bullet> EPA has failed to follow the intent of Congress in its cost-
        benefit considerations in developing the rule. EPA has 
        seriously underestimated the costs of the proposed rule, 
        leaving out components of the costs that water suppliers would 
        incur and by not fully understanding the nature of groundwater 
        facilities in the western United States. Despite that, in all 
        the scenarios considered by EPA, costs exceeded benefits. While 
        we don't understand the conclusion, we have been told by the 
        rule managers that this is precisely the reason they do not 
        have to pay much attention to those comparisons. We don't think 
        that was what Congress intended.
<bullet> The rule managers are not taking into consideration the 
        potential for cross-media contamination--something that the 
        MTBE issue should have taught us to avoid. The most likely 
        treatment technology for radon will be air stripping. There 
        will be situations where the air stripping towers will be 
        discharging radioactive radon into the air in residential 
        neighborhoods, which, in some areas, can worsen air problems. 
        And it is in the air that radon is the greatest threat to 
        health. We don't think that was what Congress intended.
<bullet> EPA should implement a program that seeks to deal with the 
        radon in air problem through programs to reduce radon in indoor 
        air or mitigate in areas where it is high. However, EPA has 
        been very clear in numerous meetings and discussions in telling 
        us that they will set a very low standard for radon in drinking 
        water so that states will feel compelled to implement air 
        mitigation programs. In effect, they want to force state 
        drinking water regulators into air management and regulation 
        because they apparently do not have authority to deal with the 
        air problem directly. Because it is drinking water suppliers 
        that they regulate, state regulators will be forced to do it 
        through and/or with drinking water suppliers. We don't think 
        that is what Congress intended.
<bullet> Our state's drinking water regulators feel that the rule EPA 
        has told everyone they are proposing expects state air-
        management programs to go beyond what is feasible and 
        reasonable. A major concern is that the requirements will 
        attempt to force changes in building codes and to impact the 
        sale of homes and other buildings which could have devastating 
        effects on the value of people's homes without materially 
        benefiting public health. We don't think that is what Congress 
        intended. These requirements are sure to bring the opposition 
        of the building and real estate industries.
    We hope that you and your colleagues will take a close look at 
EPA's radon regulation proposal and that you will work with EPA, the 
water industry and other interests to develop corrections for these 
problems.
                                arsenic
    We are equally concerned about the regulation of low levels of 
arsenic in drinking water. EPA's rule proposal is scheduled to come out 
in January, but we already have had indications from EPA that a very 
low standard will be proposed. Congress apparently recognized, as we 
did, that the regulation of arsenic could potentially be very costly. 
Our studies have shown it will result in billions of dollars of costs 
for water suppliers in California. We were pleased when Congress 
recognized that this rule must be based on sound, peer reviewed science 
and that there are significant gaps in the science. The 1996 Amendments 
directed EPA to develop an arsenic research plan. Our Association 
concurred with that need and commenced a major fund raising effort to 
help fund arsenic health effects research. We raised $500,000 a year 
from the water industry for three years. The American Water Works 
Association Research Foundation (AWWARF) matched that each year with 
additional funds raised from the water industry. In addition, Congress 
appropriated federal dollars to match the money raised by ACWA and 
AWWARF--in some years two-to-one. ACWA, AWWARF and EPA then formed what 
is a historic partnership to get the most serious gaps in the science 
on arsenic health effects filled. The Arsenic Research partnership has 
funded several significant studies that are now underway. RFPs are out 
now for several additional studies. All together, 11 research projects 
will be funded. The water industry has appreciated the cooperation and 
participation of EPA. However, there are two problems:

1. It takes time to complete and peer review scientific research. None 
        of this arsenic research funded by industry and federal money 
        will be completed in time to impact the arsenic rulemaking if 
        the current EPA schedule is maintained.
2. Less than a fourth of the needed research is being done.
    Those two factors make a discouraging point--the rule will be 
proposed, considered, adopted and implemented even though the science 
on which to base a rule is woefully inadequate. Two or three years is 
needed in the rulemaking process to permit the research now underway or 
about to be started to be available to help mitigate this deficiency. A 
little more time and we can have more confidence in the rule ultimately 
implemented--that it will provide the level of health protection needed 
and assurance that our limited financial resources are not being 
wasted.
    We hope Congress will concur with us in this need to make sure this 
potentially very expensive regulation is based on sound science and 
will provide EPA with direction to incorporate the important science 
already being funded and the authority to slow the process for that 
purpose.
       stage 2 disinfection/disinfection by-products rule (d/dbp)
    EPA is moving forward very quickly to develop the Stage 2 
Disinfection/ Disinfection By-products Rule (D/DBP). Our members and 
our state's drinking water regulators express concern that it is moving 
too quickly. We do not yet have adequate experience from the Stage 1 
Disinfection/Disinfection By-product Rule. Such experience will provide 
EPA with better science and real time data on which to base regulatory 
decisions for Stage 2. We feel that the process needs to slow down.
                          mtbe and perchlorate
    It is generally recognized that MTBE poses a threat to drinking 
water and most of us believe that it does not make sense to deal with 
air issues by creating water problems. We believe EPA should have acted 
promptly, as did California, to implement a plan to resolve this 
problem. If EPA indeed lacks the authority, as some believe, than we 
hope Congress will give EPA the ability to implement other methods to 
meet clean air requirements as quickly as feasible so that we can get 
this problem behind us. That is why ACWA supports Representative Brian 
Bilbray's legislation, H.R. 11. We believe that it is time to act 
before California loses more wells and more sources of drinking water.
    Perchlorate is another contaminant that is cropping up in 
California and other locations. We need the help of EPA and other 
federal agencies to better understand this contaminant and how to deal 
with it. It is imperative that we do not wait to act until sources of 
drinking water are lost. We need federal agencies to take swift action 
to control and eliminate sources of perchlorate contamination in order 
to protect drinking water, or require private responsible parties to do 
so. We appreciate the fact that Congress has appropriated funding for 
perchlorate research. We also want to take this opportunity to 
recognize our member, East Valley Water District in San Bernardino, 
California, for its leadership role in advancing efforts to find 
solutions for the perchlorate problem, including the treatment research 
that will provide better information and help lead to solutions.
                          multi-media impacts
    Earlier I alluded to the problem of cumulative impacts of multiple 
rulemakings. It is a problem that is not well understood and does not 
receive the attention it deserves from regulators. A good example is 
that EPA over the past year has been developing three rules that each 
will significantly impact groundwater resources--the arsenic, radon and 
groundwater rules. As near as we can tell, there is no coordination 
within EPA in the processes involved, and the rule managers apparently 
have little communication with each other--as was plainly shown when a 
groundwater stakeholders meeting was held in Portland, Oregon, at the 
very same time that an arsenic stakeholders meeting was being held in 
Monterey, California. There has been no cumulative cost-benefit 
analysis. The cumulative cost impact is likely to be huge, and the 
strain on California integrated water management plans could be 
significant and result in increased reliance on limited surface water 
supplies. We recognize that little guidance is provided to EPA in the 
Safe Drinking Water Act on this point, and that may be something 
Congress could correct.
    We have focused in these comments on a few areas that cause us 
significant concern. We don't mean to imply that all is bad. On the 
contrary, the 1996 Amendments strengthened the Safe Drinking Water Act 
and provided a good framework for regulating drinking water. It 
established that drinking water regulations should (1) protect public 
health, (2) be cost effective (3) be based on sound, peer reviewed 
science; and (4) involve stakeholders and the public in the rulemaking 
process. Our intent is to show that there are some areas where the Act 
needs to be fine tuned to provide additional guidance to EPA and the 
regulatory approach of the 1996 Amendments.
    The Association of California Water Agencies appreciates the 
opportunity we have had today to share our observations and concerns 
with the Subcommittee. We look forward to working with the 
Subcommittee, EPA and others so that we can continue to improve the 
regulation of drinking water in this country. I would be pleased to 
answer any questions.

    Mr. Deal. I thank the gentleman.
    Mr. Olson.

                   STATEMENT OF ERIK D. OLSON

    Mr. Olson. Thank you. My name is Erik Olson. I am a senior 
attorney at the Natural Resources Defense Council, and we 
appreciate the opportunity to testify today. We believe that 
there have been huge improvements in public health as a result 
of the improvements in drinking water treatment in the 20th 
century. And under the 1974 act, we have seen major 
improvements. But, unfortunately, what we have now is aging and 
outdated infrastructure. Much of that infrastructure is going 
to be needed to be modernized. For the sake of comparison, 
about $138 billion according to EPA is going to have to be 
spent to modernize the current infrastructure. That is billion 
dollars, not million. If you compared that to traditional 
business practices of investing say 10 or 20 percent of your 
expenses in research and development, we would be spending 
somewhere in the neighborhood of $13 to $20, $25 billion a 
year--billion dollars on research in order to support that kind 
of investment. Our concern is that there is inadequate 
investment in doing the research that is necessary to support 
the modernization and to guide modernization that is going to 
be necessary over the next 20 years.
    Let's look at the GAO report. GAO really was forced to 
compare authorized levels to what is actually being requested 
by the administration and didn't really look at what has been 
appropriated, but it is clear there are short falls in the 
research effort. Clearly the administration has to support the 
budget that they have put forward, and we are not going to hear 
them admitting that there are major shortfalls, but we believe 
there are. Part of the real problem here is earmarking, in 
part, we think. The more earmarking that exists, the more 
difficult it is for the agency to dedicate its funding to the 
highest possible priorities.
    Health effects research--there are many areas that clearly 
are suffering from a lack of adequate funding, and we think 
that those problems will be exacerbated. As we see the 
contaminant candidate list move forward, there is a need for 
more stable long-term funding in this area.
    One issue that I wanted to raise to the committee's 
attention is this committee worked very hard in the 1996 
amendments to put a provision in the act that set aside a 
dedicated $10 million per year coming out of the State 
revolving fund to support health effects research. As a result 
of actions by the Appropriations Committee basically reversing 
that a court decision was handed down and that set-aside no 
longer exists is the essence. That was one area that would have 
assured some stable funding for research. Unfortunately, it no 
longer exists. We believe that it is absolutely critical to 
have a stable long-term set of research dollars that are 
available so that EPA can plan, over the long term, what 
research is necessary.
    We think two things are necessary to make that happen. 
First of all, there needs to be an open public research 
planning approach unlike what we have now. We have had it for 
the disinfection by-products area which was very successful, we 
believe, in having public disclosure of what EPA's research 
agenda was and public discussion of it. We would like to see 
that expanded to the entire program.
    Second, we think there is a need for dedicated trust fund 
to be paid for by a water fee that would pay for drinking water 
research in high priority public health measures. This has been 
discussed among many of the industry in States and in the 
public interest community. I would say that there are many 
industries that are supportive of it. They may not have the 
majority in industry on board yet, but clearly it is an idea 
whose time has come, we believe, to make sure that we have 
stable funding that isn't constantly being buffeted by the 
changing winds of annual appropriations bills.
    We also believe that there is a clear need for research on 
some areas that EPA often doesn't consider to be part of its 
research budget. For example, how are we going to make source 
water protection more effective? How are we going to upgrade 
our--the public's knowledge and make more effective public 
right to know so that we can understand the multi-billion 
dollar task that is in front of us to upgrade our treatment? 
How are we going to make sure there small systems will come 
into compliance?
    I wanted to mention--attached to our testimony is some 
recent evidence of compliance problems across the country with 
drinking water regulations. One question is why is that 
continuing to occur? We believe that there needs to be better 
data tracking and more investment in upgrading EPA and State 
data systems. In conclusion, we believe that overall, the 
agency is making some progress, should be taking advantage of 
some of the other agencies that are making strides in 
developing research agendas including NIH, CDC, and other 
agencies to make sure that we have an integrated Federal 
program to look at drinking water research. Thank you.
    [The prepared statement of Erik D. Olson follows:]
Prepared Statement of Erik D. Olson, Senior Attorney, Natural Resources 
                            Defense Council
    Good morning, I am Erik D. Olson, a Senior Attorney at the Natural 
Resources Defense Council (NRDC), a national non-profit public interest 
organization dedicated to protecting public health and the environment. 
We have over 400,000 members nationwide. We appreciate the opportunity 
to testify today on the important issue of drinking water research.
    Drinking water treatment improvements begun at the turn of the 20th 
Century have advanced public health protection enormously, but much of 
the nation's drinking water infrastructure now is aging and outdated. 
We must modernize our water systems and safeguard the nation's water 
supplies from new and emerging contaminants. EPA estimates that the 
costs of modernization will exceed $138 billion dollars, while NRDC 
(and many in states and the water industry) believe the true costs of 
this massive upgrade will be many times that estimate. Most of these 
costs will be incurred with or without new EPA regulations. Major new 
research initiatives are necessary, to support and guide this 
modernization.
    The 1996 Safe Drinking Water Act (SDWA) Amendments should help to 
encourage better health protection, and EPA should be commended for the 
generally open public process used to date in implementing most of this 
law. There are several areas of concern, however, in the implementation 
of the research-related provisions of the new Act:

<bullet> Inadequate EPA Resources for Drinking Water Research. The 
        General Accounting Office has documented enormous shortfalls in 
        EPA's research budget. We agree with GAO's findings that EPA 
        has failed to request, and Congress has failed to appropriate, 
        adequate funds for research. There was about a $25 million 
        shortfall in FY 1998, and a $14 million shortfall in FY 2000, 
        for example. We are concerned that some standards may not be 
        set as strictly as necessary to protect the public, and that 
        some dangerous contaminants may not be regulated, if the 
        important research is not done.
<bullet> Health Effects Research Needed. EPA must immediately fund 
        certain high-priority joint research with CDC and ATSDR on 
        disinfection byproducts' reproductive effects, though NRDC and 
        many experts conclude that existing data on these effects are 
        sufficient to warrant expeditious public health prevention 
        measures. EPA also needs additional resources to address 
        emerging chemical and microbial contaminants on the contaminant 
        candidate list, as noted by GAO. In addition, the required 
        vulnerable subpopulation research has seriously lagged: EPA 
        must open up the process for planning this work and make it a 
        priority.
<bullet> Health Effects Research: Guarantee of Long-Term Funding is 
        Urgently Needed. Resources for health effects research must be 
        guaranteed over the long haul. EPA and researchers need to be 
        assured that funding will be available for the multi-year 
        research necessary, to fully evaluate the potential adverse 
        effects of known and emerging tap water contaminants. 
        Typically, toxicological or epidemiological studies require a 
        minimum of three to five years from inception to completion. 
        Assurance of funding for the full term of the research is 
        needed to enable EPA and researchers to set priorities, plan, 
        and complete this research.
<bullet> Appropriations Acts and a Court Decision Have Effectively 
        Eliminated the Drinking Water State Revolving Fund (DWSRF) Set-
        Aside for Health Effects Research, Undercutting Funding 
        Assurances. This Committee and the 1996 SDWA Amendments adopted 
        a provision in the DWSRF assuring a $10 million set-aside for 
        health effects research, SDWA Sec. 1453(n). The appropriations 
        committees, however, have included provisions purporting to 
        negate this set-aside in the last several appropriations acts. 
        Unfortunately, a court decision--reached with the support of 
        EPA--effectively found that the appropriations language 
        overrode the set-aside in the Act. Thus, this Committee's 
        effort to assure long-term funding of this research has been 
        nullified by subsequent Congressional action. This Committee 
        should fight for the full set-aside for this research.
<bullet> A Forum for Open Public Research Planning and Priority Setting 
        is Necessary. EPA should formalize an open public process for 
        developing its drinking water research plans, similar to the 
        highly successful Microbial and Disinfection Byproducts 
        Council, but with additional public comment and openness 
        assured. This is a far more effective approach than the largely 
        closed-door process EPA used in planning its arsenic research, 
        for example.
<bullet> A Modest, Dedicated Water Fee, Allocated to a Trust Fund 
        Without Further Appropriation, is Needed to Support Long-Term 
        Drinking Water Research and to Address High Priority Health 
        Risks for Small Systems. As part of a series of discussions 
        with the water industry and others, NRDC and many in the public 
        interest community (and frankly, some in the industry) have 
        come to the conclusion that Congress should enact a modest 
        water fee that would support a long-term guarantee of adequate 
        research funding for drinking water. The funds raised should be 
        set aside in a trust fund that is available without need for 
        further appropriations, so that the research agenda is not 
        buffeted by the ever-changing winds of the annual 
        appropriations process. In addition, we believe that those 
        funds should be made available for direct funding of the most 
        substantial public health threats posed by drinking water 
        systems, such as grants for emergency repairs, treatment, or 
        consolidation of small systems with serious health standard 
        violations.
<bullet> Other Research Needs: Assuring More Effective Public Right-to-
        Know, Better Source Protection, More Affordable Advanced 
        Treatment Technologies, Better Analytical Methods, and Improved 
        Small System Management, Restructuring, and Treatment. EPA 
        needs to conduct further research about how to build public 
        understanding of tap water challenges. The EPA right-to-know 
        report rules issued in 1998 that require reports to be issued 
        to consumers by October 19, 1999 (yesterday) are a major step 
        forward, but it is critical that methods be developed to 
        improve public understanding of these complex issues. Other 
        important areas of research include: investigations into ways 
        in which source water protection can be made a more effective 
        tool for drinking water protection; research on how modern 
        treatment methods can be improved and costs decreased; 
        development of better, cheaper, and easier analytical methods; 
        and improved approaches to assuring small system compliance 
        through restructuring or treatment upgrades.
<bullet> Research to Support Treatment, Occurrence, and Related Issues 
        for Microbes, Disinfection Byproducts, Groundwater, and 
        Distribution System Risks. New standards will be issued over 
        the next several years for many contaminants, yet EPA resources 
        for research on the availability of treatment and on occurrence 
        are inadequate. These rules will be determinative as to whether 
        the ``Third Revolution'' in drinking water protection--
        involving true multiple barriers to contamination in the form 
        of source water protection, advanced ``leap frog'' treatment 
        technologies, and modern distribution system management--will 
        occur in the early 21st Century, or whether the nation's aging 
        and often outdated water supplies will continue to inadequately 
        address these emerging problems and to deteriorate. A stronger 
        research commitment is needed.
<bullet> Research on How to Fix Compliance Problems that Continue to 
        Plague the Drinking Water Program. Widespread violations of the 
        SDWA, and inadequate state and EPA enforcement against even the 
        most recalcitrant violators continue to be a major problem. 
        Improved data collection and management are crucial to assist 
        EPA, states, and the public to address these issues. Compliance 
        problems and data collection and management failures have 
        recently been catalogued in the attached USA Today series 
        published in October, 1998, in a recent EPA audit discussed in 
        the attached front page USA Today article, and in EPA's own 
        1998 Annual Compliance Report. The EPA drinking water program 
        and states need to upgrade their management systems and 
        programs. Routine audits of federally-funded state programs are 
        a crucial part of this effort. The new SDWA small system 
        viability provisions could begin to reduce these problems, but 
        substantial additional resources and research are needed to 
        assure that these programs bear fruit. Additionally, small 
        system technical assistance should be granted on a competitive 
        basis, based upon the best available research, so that these 
        assistance providers demonstrate that they can deliver accurate 
        technical assistance to small systems in a cost-efficient 
        manner. We oppose ``earmarked'' assistance funding that is non-
        competitive, as it often fails to allocate resources so as to 
        maximize health benefits.
<bullet> Better Leveraging of Other Federal Agency Resources. The 
        federal government has a wealth of expertise and resources 
        directly relevant to EPA's drinking water program that should 
        be better integrated into EPA's efforts. For example, the 
        Centers for Disease Control, Agency for Toxic Substances 
        Disease Registry, and many of the institutes at the National 
        Institutes of Health, including the National Cancer Institute, 
        the National Institute of Environmental Health Sciences, the 
        National Institute of Allergy and Infectious Disease, National 
        Institute of Child Health and Human Development, National 
        Heart, Lung, and Blood Institute, National Institute of 
        Neurological Disorders and Stroke, and many other institutes 
        and agencies conduct research of which EPA often is unaware. A 
        better program is urgently needed to assure more information 
        sharing and collaboration among the federal agencies. Some 
        successful examples of such collaboration can be noted--such as 
        the waterborne disease estimation research being jointly 
        spearheaded by EPA and CDC, and the joint work on disinfection 
        byproducts by EPA, ATSDR, and NTP. Perhaps more often, however, 
        there is little or no collaboration among many of the agencies 
        in priority setting and in conducting research. The lack of 
        coordination can result in serious lost opportunities, and 
        potentially in duplication of effort.
    In conclusion, NRDC strongly believes that a vigorous and well-
funded EPA research effort is crucial to the long-term success of the 
drinking water program and the nation's tap water safety. Only a long-
term stable source of adequate funding will assure that this research 
is done.

[GRAPHIC] [TIFF OMITTED] T0360.008

[GRAPHIC] [TIFF OMITTED] T0360.009

[GRAPHIC] [TIFF OMITTED] T0360.010

[GRAPHIC] [TIFF OMITTED] T0360.011

[GRAPHIC] [TIFF OMITTED] T0360.012

[GRAPHIC] [TIFF OMITTED] T0360.013

[GRAPHIC] [TIFF OMITTED] T0360.014

[GRAPHIC] [TIFF OMITTED] T0360.015

[GRAPHIC] [TIFF OMITTED] T0360.016

[GRAPHIC] [TIFF OMITTED] T0360.017

[GRAPHIC] [TIFF OMITTED] T0360.018

[GRAPHIC] [TIFF OMITTED] T0360.019

[GRAPHIC] [TIFF OMITTED] T0360.020

[GRAPHIC] [TIFF OMITTED] T0360.021

[GRAPHIC] [TIFF OMITTED] T0360.022

[GRAPHIC] [TIFF OMITTED] T0360.023

    Mr. Deal. Thank you, Mr. Olson.
    We will now turn to the members for their questions and 
comments.
    Mr. Bilbray.
    I believe Mr. Ganske is next.
    Mr. Ganske. Thank you, Mr. Chairman. Should the EPA ban 
MTBE or make a recommendation that it not be allowed 
nationwide? Mr. Sullivan?
    Mr. Sullivan. I believe our association and I will have to 
speak only for the American Water Works Association on that, 
said that MTBE should be phased out. We supported the 
recommendation that was put forward by the group.
    Mr. Ganske. Over what period of time? Did you have a 
timeframe.
    Mr. Sullivan. No, I did not.
    Mr. Ganske. Do you have any recommendations on that.
    Mr. Sullivan. I think what we have to do is finalize the 
research and find out exactly what are we going to use for a 
substitute.
    Mr. Ganske. Mr. Hall.
    Mr. Hall. In California, the legislation that I referred to 
in the Governor's executive order calls for a phaseout of MTBE 
in California by 2002. That was based upon the ability of 
California to either develop clean burning fuels without 
oxygenate or replace MTBE with another oxygenate in a way that 
would not drive up the price of fuel to an unacceptable level.
    Our organization would support a nationwide phaseout 
based--and the same sort of criteria that be replaced as soon 
as possible without putting consumers in a position of having 
to pay substantially more for their gasoline.
    Mr. Ganske. Mr. Olson.
    Mr. Olson. We had a scientist that sat on the blue ribbon 
panel reviewing the MTBE situation. And we, I believe, 
supported the results of that blue ribbon recommendation. 
Obviously it is a very touchy issue because it is a tradeoff 
between air pollution and drinking water pollution, but we 
think there are opportunities to gradually phaseout MTBE.
    Mr. Ganske. Maybe you gentlemen who are experts on MTBE can 
help educate us. I mean, I think I have read that the MTBE can 
stick around in the water for really a long period of time. Mr. 
Sullivan, do you have data on how long we are looking at?
    Mr. Sullivan. No, I don't have any data available, however 
it is very persistent. It will stick around, as you say.
    Mr. Ganske. Mr. Hall is there a process to clean it to get 
it out of the water?
    Mr. Hall. There are processes being developed. 
Unfortunately, none of them are totally effective; and they 
look very expensive. And we also had a member on that blue 
ribbon panel and likewise support the recommendations of the 
panel. And they addressed such things as the kinds of questions 
you are asking which led to their set of recommendations.
    Mr. Ganske. Mr. Olson, MTBE, I think, is known to have some 
potentially pretty bad effects. Can you give us a short summary 
of what the concerns are with MTBE?
    Mr. Olson. I am afraid I am not a toxicologist so I would 
be happy to supply for the record some of the evidence, and I 
can confer with our scientist who is on top of that.
    Mr. Ganske. Mr. Hall, I think you have been really involved 
in this issue. What are the concerns?
    Mr. Hall. First, of course, is the public acceptance of 
their drinking water supply. People can taste and smell MTBE at 
extremely low levels, just a few parts per billion. It tastes 
and smells like turpentine. Irrespective of any actual health 
effects it creates a crisis of confidence among the public in 
their drinking water if their water tastes and smells like 
turpentine.
    It is a suspected carcinogen, not a known carcinogen. I am 
reluctant to go beyond that in describing health effects 
because I am not a toxicologist either. However, the University 
of California has done extensive research on MTBE, both the 
health effects and its persistence and its ability to get into 
groundwater above and beyond other gasoline-based constituents. 
I would be happy to provide the committee with any information 
that it would like based on the University of California 
research.
    Mr. Ganske. Is the problem with MTBE in comparison to say 
gasoline that it is so water soluble?
    Mr. Hall. Apparently the compound unlike other compounds in 
gasoline prefers water over soil. The molecules binds more 
quickly to water than to soil, and that is not true of the 
other compounds in gasoline.
    Mr. Ganske. I thank you. Thank you, Mr. Chairman.
    Mr. Deal. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Mr. Sullivan, talk to 
us about the specific earmarks since 1996 that the 
Appropriations Committee has put in for your earmarks for the 
research budget. What is your assessment of what that does 
overall to sort of the strategy on the ORD and Office of Water 
Research Plans and Budgets?
    Mr. Sullivan. The only earmarks that I am familiar with are 
the earmarks that go to the American Water Works Association 
Research Foundation. Those are usually worked in conjunction 
for issues that are worked in conjunction with EPA. And I am 
unaware that they really present any particular problem 
associated with drinking water research since the research 
foundation does dedicate all of their research to drinking 
water.
    Mr. Brown. Well, the panelists earlier suggested, and I 
think you were here, suggested that that causes them, in some 
cases, to put priorities that they have established aside in 
order to carry out the, you know, the will of the 
appropriators, I mean, and ultimately the will of the Congress. 
Do you agree with that assessment or no?
    Mr. Sullivan. I heard the comment. I am not sure I have 
enough information to really evaluate it. I also heard the 
comment that the drinking water budget is some 7 percent of the 
overall budget.
    Mr. Brown. Mr. Olson, you want to comment on that too.
    Mr. Olson. Yes. It is our understanding that there is over 
$7 million in earmarks just in the drinking water arena. I 
don't believe all of that is going to water by any stretch of 
the imagination.
    The other problem, I would agree just allocation in the 
Office of Research and Development for drinking water 
traditionally, even though it has gone up slightly or even 
doubled, still is very low by comparison to the amount of risk 
that we believe is associated with drinking water as compared 
to some of the other risks. So it is kind of a zero sum game 
because you are trading things off. So we believe that, 
overall, the ORD budget needs to be going up and the drinking 
water budget needs to accelerate.
    Mr. Brown. Mr. Olson, you talked about a water fee trust 
fund. You said it is an idea whose time has come. Do you see 
any activity in this body, any real interest in that? How--more 
importantly, how would you structure it? How would you assess 
it? How much? Who administers it? Talk that through briefly if 
you would.
    Mr. Olson. The idea has been kicked around as part of the--
there is a 25th anniversary of the Safe Drinking Water Act this 
year, and there is a process of stakeholder discussion with the 
industry and environmentalists and others in which this idea 
has been determined. I believe there is a paper that is being 
drafted, I don't know, Jack, if you know when it is coming out, 
but I don't believe it has been presented to the Hill yet 
really as part of the legislative package. And those details 
would be worked out.
    We think, however, that the hearing today and a lot of 
other previous hearings have suggested that it just isn't a 
healthy atmosphere for the agency to plan long-term research if 
it can't assure that--although it has money this year, that it 
will have money 2 years from now. Many of these studies take 3 
to 5 years, and a lot of researchers frankly don't want to 
dedicate their lab or efforts to doing long-term research if 
they can only be told that they will get money this year and 
they are not assured that they will get it years 2 through 5.
    So that is why we think that that kind of trust fund will 
absolutely be critical to making sure that the long-term 
research that we all think is necessary will be funded.
    Mr. Brown. Do you have evidence that some of those 
researchers--did researchers make decisions not to pursue a 
contract or not to do work because they think just aren't 
certain of any long-term efforts from--long-term commitment 
from us and long-term commitment from EPA?
    Mr. Olson. Let me give you an example: The 1994 agreement 
of all the parties including EPA on disinfection by-products 
said the top priority research project should be to look at 
short-term birth defects and short-term effects of these by-
products.
    Everybody agreed that was the top priority. Most of those 
studies never got started because there weren't commitments of 
long-term funding for them. Frankly, I think the big study that 
Dr. Noonan referred to which is going to cost $3 to $4 million 
really only got started about a year ago. The funding for it. 
And it is our belief that that was largely because there was 
not a long-term funding commitment.
    Mr. Deal. I have to interrupt here because we do have a 
vote. We are going to try to finish. Mr. Lazio.
    Mr. Lazio. Thank you, Mr. Chairman. I want to follow up on 
that line of questioning. I knew you were in the room, Mr. 
Olson, when I was positing some of those points earlier.
    I wonder if you could flesh out a little bit more--I know 
NRDC and other organizations have been very focused on these 
subpopulations that are particularly vulnerable, pregnant 
women, children, people with compromised immune systems. And 
you have been testifying now to the fact that you think that 
the long-term commitment of funding has undermined the ability 
of EPA to do the studies, the epidemiological studies and 
others that would help us create a policy that is most 
beneficial.
    Is that the only reason that you see? Do you think that EPA 
could have been engaged earlier in this, should they have been 
engaged earlier in this? Are there bureaucratic reasons why 
they were not focused on these studies earlier?
    Mr. Olson. I think it is, in part, just a lack of 
commitment to make that the highest priority. Just a 
bureaucratic lack of that commitment. There are always trading 
off priorities. But the 1996 amendments, as I think you 
referred to specifically, said this was supposed to be a 
priority. And it really wasn't until about 2 years after the 
act passed that the agency really made the firm commitment to 
funding those studies. And at that point, there are several 
outside parties including the California Department of Health 
Services that had made that long-term commitment that is the 
reason those studies got done. And the public health service 
did a study in New Jersey on birth defects and these by-
products. But the vast majority of the funding from those was 
not coming from EPA.
    Mr. Lazio. I know time is running out. We have a vote on 
the floor. I want to ask the chairman if we can communicate and 
maybe the ranking member, if we can communicate the need for 
the EPA to heed the direction of the 1996 act in terms of some 
of these subpopulations. I think it is critical.
    Mr. Deal. We will. I will remind the panel we may submit to 
you written questions and inquiries as follow-up to this. We do 
have a series of votes.
    Rather than prolong it and ask you stay for that prolonged 
series of votes, I believe this will conclude the questioning 
from the panel. We thank all of you, both panels for being here 
today.
    The committee is adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

    [GRAPHIC] [TIFF OMITTED] T0360.024
    
    [GRAPHIC] [TIFF OMITTED] T0360.025
    
    [GRAPHIC] [TIFF OMITTED] T0360.026
    
    [GRAPHIC] [TIFF OMITTED] T0360.027
    
    [GRAPHIC] [TIFF OMITTED] T0360.028
    
    [GRAPHIC] [TIFF OMITTED] T0360.029
    

</pre></body></html>
